Case: 19-2134

Document: 41

Page: 1

Filed: 05/26/2020

NOTE: This order is nonprecedential.

fHniteti Stated Court of glppeafe
for tiie jfe&eral Circuit
LARRY GOLDEN,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2019-2134
Appeal from the United States Court of Federal Claims
in No. l:19-cv-00104-EGB, Senior Judge Eric G. Bruggink.
ON PETITION FOR REHEARING EN BANC
Before Prost, Chief Judge, Newman, Mayer*, Lourie,
Dyk, Moore, O’Malley, Reyna, Wallach, Taranto,
Chen, Hughes, and Stoll, Circuit Judges.
Per Curiam.
ORDER

* Circuit Judge Mayer participated only in the decision
on the petition for panel rehearing.

1

APPENDIX A

Case: 19-2134

Document: 41

Page: 2

Filed: 05/26/2020

GOLDEN v. UNITED STATES

2

Appellant Larry Golden filed a petition for rehearing
en banc. The petition was first referred as a petition for
rehearing to the panel that heard the appeal, and thereaf­
ter the petition for rehearing en banc was referred to the
circuit judges who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on June 2, 2020.

For the Court
Isl Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Mav 26. 2020
Date

2

Case: 19-2134

Document: 37

Page: 1

Filed: 04/10/2020

®mteti States! Court of Sppeate
for tlje JfeiJeral Circuit
LARRY GOLDEN,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2019-2134
Appeal from the United States Court of Federal Claims
in No. l:19-cv-00104-EGB, Senior Judge Eric G. Bruggink.
Decided: April 10, 2020
LARRY Golden, Greenville, SC, pro se.
David Allen Foley, Jr., Commercial Litigation
Branch, Civil Division, United States Department of Jus­
tice, Washington, DC, for defendant-appellee. Also repre­
sented by Joseph H. Hunt, Gary Lee Hausken.
Before O’MALLEY, MAYER, and Wallach, Circuit Judges.
O’MALLEY, Circuit Judge.
Larry Golden (“Golden”) appeals an order of the United
States Court of Federal Claims (“Claims Court”)

3

APPENDIX B

Case: 19-2134

Document: 37

2

Page: 2

Filed: 04/10/2020

GOLDEN V. UNITED STATES

dismissing his claims against the United States (“govern­
ment”) pursuant to Rules 12(b)(1) and 12(b)(6) of the Rules
of the Claims Court (“RCFC”). The Claims Court held that
Golden’s complaint alleges a duplicative claim over which
the court lacked jurisdiction, and his complaint fails to
state a claim upon which relief can be granted. Golden v.
United States, No. 19-cv-00104 (Fed. Cl. May 14, 2019),
ECF No. 12 (“Claims Court Op”). For the reasons ex­
plained below, we affirm.

Background
Golden, proceeding pro se, filed this suit pursuant to
28 U.S.C. § 1491(a) on January 17, 2019, seeking “reason­
able and entire compensation for the unlicensed use and
manufacture” of his “inventions described in and covered
by” various patents. Golden v. United States, No. 19-104C
(Fed. Cl. May 14, 2019), ECF No. 1; SAppxlOL^.1 Relevant
to this appeal are certain other proceedings involving some
or all of the patents that were the subject of Golden’s com­
plaint in this case: Golden v. United States, No. 13-307C
(Fed. Cl. May 1, 2013) (“Lead Case”) and U.S. Dep’t of
Homeland Security v. Golden, No. IPR 2014-00714 (“the
IPR”). Resolution of this appeal does not require a detailed
recitation of the factual background of the Lead Case or the

i

Golden filed an “Informal Brief Appendix” on Sep­
tember 3, 2019, using the prefix “Appx.” Golden also filed
an additional appendix with his reply brief on November 7,
2019. This Reply Appendix also uses the prefix “Appx,” and
restarts the numbering at Appxl. The government, for its
part, filed a Supplemental Appendix, using the same
“Appx” prefix as Golden’s two appendices, but beginning
the numbering at AppxlOOO. We cite to the government’s
Supplemental Appendix as “SAppx,” Golden’s “Informal
Brief Appendix” as “Appx,” and Golden’s Reply Appendix
as “RAppx.”

4

Case: 19-2134

Document: 37

Page: 3

Filed: 04/10/2020

3

GOLDEN v. UNITED STATES

IPR. Accordingly, only the facts relevant to this appeal are
discussed below.
A. Lead Case
On May 1, 2013, Golden filed the complaint in the Lead
Case, alleging patent infringement by the government pur­
suant to 28 U.S.C. § 1498(a). The trial court allowed
Golden to amend his complaint five times, and, with each
amendment, Golden added claims of infringement of addi­
tional patents. Starting with the second amended com­
plaint, Golden also included allegations of “Government
Taking,” alleging that the government had “taken the sub­
ject matter, scope, technology rationale, devices schemat­
ics, processes, methods, procedures and systems of what is
now Golden’s patents ... for public use without just com­
pensation.” SAppxl791-93. Golden alleged that the
Claims Court had jurisdiction over his takings claims un­
der 28 U.S.C. § 1491. SAppxl791. Noting that the takings
claims appeared to be duplicative of the patent infringe­
ment claims, the trial court initially stayed Golden’s tak­
ings claims, “pending determination of liability for the
Government’s alleged patent infringement.” SAppxl794
(citing Zoltek Corp. v. United States, 672 F.3d 1309 (Fed.
Cir. 2012) (en banc)).
On August 10, 2017, Golden filed his fifth and final
amended complaint in the Lead Case. SAppx2040. This
voluminous filing included a general “Count I,” alleging
“Fifth Amendment Takings” of nine of Golden’s patents.
SAppx2065-67.2 It also included additional specific “Count
Is,” which recite takings allegations tailored to the use of
specific electronic devices. See, e.g., SAppx2069-70 (LG

2

Specifically, Golden alleged taking of the “subject
matter as outlined in” his U.S. Patent Nos. 7,385,497;
7,636,033; 8,106,752; 8,334,761; 8,531,280; RE43,891;
RE43,990; 9,096,189; and 9,589,439. SAppx2065.

5

Case: 19-2134

Document: 37

4

Page: 4

Filed: 04/10/2020

GOLDEN v. UNITED STATES

Electronics G5 Smartphone), SAppx2071-73 (LG Electron­
ics V10 Smartphone), SAppx2074—75 (Apple’s iPhone/iPad
Camera Biosensor for Facial Heart Rate Monitor). The
complaint similarly included corresponding “Count IIs”—
patent infringement claims under 28 U.S.C. § 1498 refer­
encing the same electronic devices. See, e.g., SAppx2067—
69; SAppx2070—71; SAppx2073-74; SAppx2075-76.3
On March 29, 2018, the Claims Court issued a memo­
randum opinion and order, granting-in-part the govern­
ment’s motion for partial dismissal of the Lead Case and
denying Golden’s motion for leave to file a motion for sum­
mary judgment. Golden v. United States, 137 Fed. Cl. 155,
159 (2018) (dismissing certain patent infringement
claims). Golden appealed the partial dismissal opinion to
this court. SAppx2301. We dismissed the appeal as prem­
ature because the Claims Court had not yet issued a final
decision or judgment in the Lead Case. Order, Golden v.
United States, No. 2018-1942 (Fed. Cir. Aug. 1, 2018); Or­
der, Golden v. United States, No. 2018-1942 (Fed Cir. May
31, 2018).
In November 2018, the Claims Court lifted the stay on
Golden’s takings claims in the Lead Case, “[t]o pursue effi­
cient resolution of all claims in th[e] case[.]” SAppx2303-4.
The court permitted the government to file a motion to dis­
miss those claims. SAppx2304. On May 8, 2019, the trial
court granted the government’s motion and dismissed
Golden’s takings claims. Golden v. United States, No.
13-307C, 2019 WL 2056662, at *3 (Fed. Cl. May 8, 2019).

3 Golden’s generic patent infringement “Count II”
referenced the same nine patents as his takings claims, as
well
as
his
Continuation
Patent
Application
No. 15/530,839, which later issued as U.S. Patent
No. 10,163,287. SAppx2067-69.

6

Case: 19-2134

Document: 37

Page: 5

Filed: 04/10/2020

5

GOLDEN v. UNITED STATES

Certain patent infringement allegations from the Lead.
Case have not yet been resolved, however. SAppx2303.
The case is stayed pending resolution of Golden’s petition
in an inter partes review proceeding affecting one of the pa­
tents at issue in the Lead Case. SAppx2339-40. The
court’s rulings on the takings claims in the Lead Case are,
accordingly, not yet ripe for appeal to this court.
B. Inter Partes Review of
U.S. Patent No. RE43,990
On April 30, 2014, the Department of Homeland Secu­
rity (“DHS”) petitioned the Patent Trial and Appeal Board
(“Board”) for inter partes review of claims 11, 74, and 81 of
Golden’s U.S. Patent No. RE43,900. The Board instituted
review on October 8, 2014. During this proceeding, Golden
filed, pro se, a Patent Owner Response and Motion to
Amend. The Board held a conference call with the parties
following this filing, and informed Golden that it was un­
clear whether his Motion to Amend was contingent on the
Board finding the challenged claims unpatentable.
SAppx2434—36. The Board informed Golden that, if his
Motion to Amend was non-contingent, he was “in essence,
abandoning the claims at issue, and saying that we should
only look at the claims as amended in the Motion to
Amend.” SAppx2436. The Board also “urge[d]” Golden “to
retain new counsel because of the possible consequences of
this proceeding, as well as its very technical nature.”
SAppx2437. In response, Golden again filed his Patent
Owner Response, as well as two separate Motions to
Amend, which the Board treated “in the collective as a sin­
gle motion to amend.” SAppx2512.
On February 3, 2015, the Board held another telecon­
ference, and confirmed with Golden that his Motion to
.Amend was, indeed, non-contingent. According to the
Board, Golden confirmed “that he is abandoning the claims
on which trial was instituted.” SAppx2512. The Board is­
sued its final written decision on October 1, 2015. It

7

Case: 19-2134

Document: 37

6

Page: 6

Filed: 04/10/2020

GOLDEN V. UNITED STATES

granted Golden’s non-contingent request to cancel the orig­
inal claims. It also found that Golden had failed to demon­
strate by a preponderance of the evidence that his proposed
substitute claims were patentable over the prior art.
SAppx2547.
Golden did not appeal the Board’s final written deci­
sion, but is currently petitioning the Patent and Trade­
mark Office (“PTO”) (through counsel) to strike the Inter
Partes Review Certificate as an ultra vires agency action.
In that petition, Golden argues that, under the Supreme
Court’s recent decision in Return Mail, Inc. v. U.S. Postal
Serv., 139 S. Ct. 1853 (2019), a government agency may not
petition for IPR. SAppx2600-02.
C. The Present Case
Golden filed the present case in January 2019, shortly
before the Claims Court granted the government’s motion
to dismiss the takings claims in the Lead Case. In this ac­
tion, Golden again seeks compensation for the govern­
ment’s Fifth Amendment Taking of his property, i.e.,
several of his U.S. patents, which were also at issue in the
Lead Case. Golden v. United States, No. 19-104C (Fed. Cl.
May 14, 2019), ECF No. 1; SAppxl012. In this complaint,
Golden alleges takings of the subject matter of his patents
based on actions by different entities, including the Board,
the Department of Justice, DHS, the Claims Court, and our
court. SAppxlOll—12. The complaint alleges the takings
occurred by virtue of: (1) the government’s use, manufac­
ture, development, and disclosure of the subject matter
“outlined” in the claims and specifications of Golden’s pa­
tents; (2) the cancellation of certain patent claims during
the IPR initiated by the government; and, (3) certain ac­
tions by the Claims Court and the Federal Circuit in the
Lead Case. On January 29, 2019, the trial court deter­
mined that Golden’s complaint raises identical questions of
law and fact as the Lead Case and consolidated the cases.

8

Case: 19-2134

Document: 37

Page: 7

Filed: 04/10/2020

7

GOLDEN v. UNITED STATES

On May 14, 2019, upon the government’s motion pur­
suant to RCFC 12(b)(1) and 12(b)(6), the Claims Court dis­
missed Golden’s complaint in the present case as largely
duplicative of the takings claims in the Lead Case, which
the court had recently dismissed. Claims Court Op. at 1.
The court held that, even if the complaint was not duplica­
tive of the Lead Case, the Claims Court did not have juris­
diction over the takings claims because Golden cannot
label his patent infringement claim as a “taking” in order
to proceed under the court’s Tucker Act jurisdiction. Ac­
cording to the trial court, patent infringement claims
against the government are to be pursued exclusively un­
der § 1498, and “‘patent rights are not cognizable property
interests for Takings Clause purposes.’” Id. at 3—4 (citing
Zoltek v. United States, 442 F.3d 1345 (Fed. Cir. 2006)
(“Zoltek F), vacated on other grounds on reh’g en banc,
672 F.3d 1309 (Fed. Cir. 2012) (“Zoltek II’) and quoting
Christy, Inc. v. United States, 141 Fed. Cl. 641, 657-60
(2019)).
As to Golden’s IPR-based takings claims, the trial court
found that patent rights are not private property for pur­
poses of a Fifth Amendment takings claim. The court then
concluded, “setting aside whether an action by the Board
could ever constitute a government taking,” the cancella­
tion of claims in the IPR was the result of Golden’s volun­
tary amendment of his claims. Id. at 4. Finally, as to
Golden’s grievances against the Claims Court and this
court, the trial court explained that the courts adjudicate
patent rights, and, “in any event, as Mr. Golden himself
notes, both courts have allowed his patent claims to con­
tinue in the [Lead Case].” Id. Golden timely appeals. We
have jurisdiction pursuant to 28 U.S.C. § 1295(a)(3).
Discussion
Whether the Claims Court properly granted the gov­
ernment’s motion to dismiss is a question of law. Rocovich
v. United States, 933 F.2d 991, 993 (Fed. Cir. 1991). This

9

Case: 19-2134

Document: 37

8

Page: 8

Filed: 04/10/2020

GOLDEN V. UNITED STATES

court reviews a question of law de novo and reverses the
Claims Court’s legal conclusion only if it is incorrect as a
matter of law. See Place way Constr. Corp. v. United States,
920 F.2d 903, 906 (Fed. Cir. 1990).
On appeal, Golden argues that the trial court improp­
erly dismissed his takings claims based on: (1) the govern­
ment’s infringement of his patents; (2) the institution of the
IPR; and (3) the Claims Court’s dismissal of his causes of
action relating to patent claims that were “unjustly can­
celled in the IPR.” Appellant’s Br. 5, 13. He also argues
that there were “several breaches of implied-in-fact con­
tracts” by the government. Id. at 5. We address each ar­
gument in turn.
A.
We first consider the dismissal of Golden’s patent in­
fringement-based takings claims. The Claims Court held
that it did not have jurisdiction over these claims pursuant
to 28 U.S.C. § 1491, because patent infringement claims
against the government are to be pursued exclusively un­
der 28 U.S.C. § 1498. Claims Court Op. at 3—4 (citing
Zoltek I, 442 F.3d at 1350—53). We agree.
The Claims Court has limited jurisdiction to entertain
suits against the United States. The Tucker Act is the
principal statute governing the jurisdiction of the Claims
Court. It waives sovereign immunity for claims against the
United States that are founded upon the Constitution, a
federal statute or regulation, or an express or implied con­
tract with the United States. 28 U.S.C. § 1491. Section
1491 carves out an important exception: it does not waive
sovereign immunity for claims sounding in tort. Id. As
relevant to this case, another statute, 28 U.S.C. § 1498(a)
permits suits against the United States for its unauthor­
ized use of a patented invention. Under this statute, a pa­
tent owner may “recover [] . . . his reasonable and entire

10

Case: 19-2134

Document: 37

Page: 9

Filed: 04/10/2020

9

GOLDEN V. UNITED STATES

compensation for such use and manufacture.” 28 U.S.C.
§ 1498(a).
In support of its conclusion that § 1498 provides the
sole avenue for pursuing a claim of patent infringement
against the United States, the Claims Court relied on our
decision in Zoltek I. There, we affirmed the Claims Court’s
decision that patent owner Zoltek’s § 1498(a) infringement
claims against the government were barred because every
step of the claimed method was not performed in the
United States. And, relying on the Supreme Court’s deci­
sion in Schillinger v. United States, 155 U.S. 163 (1894), we
held that Zoltek was not permitted to proceed under the
Tucker Act by alleging that the infringement was a taking.
Zoltek I, 442 F.3d at 1350. As the subsequent history of the
Zoltek case shows, our decision in Zoltek I does not control
the jurisdictional analysis here.4 We agree, however, with
the conclusion in Zoltek I that 28 U.S.C. § 1498 provides
the only avenue for a patent owner to bring an action
against the government for patent infringement.
The Takings Clause of the Fifth Amendment states
that private property shall not “be taken for public use,

4 There, on remand, the Claims Court granted the
patent owner’s motion to amend its complaint and to trans­
fer the case, and certified that decision to us for an inter­
locutory appeal. We then voted en banc to vacate the
Zoltek /holding that Zoltek’s § 1498(a) infringement claims
were barred. Zoltek II, 672 F.3d at 1326-27. And, we held
that, “[sjince the Government’s potential liability under
§ 1498(a) is established, we need not and do not reach the
issue of the Government’s possible liability under the Con­
stitution for a taking. The trial court’s determinations on
that issue are vacated.” Id. at 1327. The Zoltek I takings
analysis, is therefore, persuasive authority, but not binding
on us.

11

Case: 19-2134

Document: 37

Page: 10

Filed: 04/10/2020

GOLDEN V. UNITED STATES

10

without just compensation.” U.S. Const, amend. V. But a
cause of action under the Fifth Amendment is unavailable
to patent owners alleging infringement by the government.
Schillinger, 155 U.S. at 168-69. In Schillinger, the Su­
preme Court held that a patentee could not sue the govern­
ment for patent infringement as a Fifth Amendment
taking. Id. The Court explained that, under the Tucker
Act, Congress waived its sovereign immunity as to certain
types of claims, but that waiver does not extend to “claims
founded upon torts.” Id. at 168. According to the Court, a
patent infringement action “is one sounding in tort[,]” and,
just as Congress could not have intended every wrongful
arrest or seizure of property to expose it to damages in the
Court of Claims under the Due Process Clause, the wrong­
ful appropriation of a patent license cannot expose the gov­
ernment to liability under the Fifth Amendment’s Takings
Clause. Id. at 168-169. Thus, under Schillinger, prior to
the Patent Act of 1910 (later codified as amended at 28
U.S.C. § 1498), the Claims Court lacked jurisdiction over
patent infringement actions against the government. As
we recognized in Zoltek I, Schillinger remains the law.
442 F.3d at 1350.
Subsequent legislation confirms that a patent owner
may not pursue an infringement action as a taking under
the Fifth Amendment. Following Schillinger, Congress en­
acted the Patent Act of 1910, which “augmented the Court
of Claims’ Tucker Act jurisdiction by providing jurisdiction
over the tort of patent infringement.” Id. at 1351. We ex­
plained in Zoltek I that 28 U.S.C. § 1498 “‘add[ed] the right
to sue the United States in the court of claims’ for patent
infringement.” Id. (quoting Crozier v. Fried. Krupp Aktiengesellschaft, 224 U.S. 290, 304 (1912)) (alterations in
original). Before the 1910 Act, no patent infringement ac­
tion could be brought against the government “unless in
the Court of Claims under a contract or implied contract
theory.” Id. The Act ‘“was intended alone to provide for
the discrepancy resulting from the right in one case to sue

12

Case: 19-2134

Document: 37

GOLDEN v. UNITED STATES

Page: 11

Filed: 04/10/2020

11

on the implied contract and the non-existence of a right to
sue’ for infringement.” Id. (quoting William Cramp & Sons
Ship & Engine Bldg. Co. v. Int’l Curtis Marine Turbine Co.,
246 U.S. 28, 41 (1918)). If the right to challenge the gov­
ernment’s infringement already existed under the Fifth
Amendment, there would be no need to expressly add to the
Claims Court’s jurisdiction through the Patent Act. See id.
Indeed, as we recognized in Zoltek I, holding to the contrary
would “read an entire statute, § 1498, out of existence.”
Id. at 1352.
Schillinger mandates the conclusion reached by the
Zoltek I court, which we expressly adopt today: the Claims
Court does not have jurisdiction to hear takings claims
based on alleged patent infringement by the government.
Those claims sound in tort and are to be pursued exclu­
sively under 28 U.S.C. § 1498. Thus, the Claims Court was
without jurisdiction to hear Golden’s patent infringementbased takings claims, and it properly dismissed these
claims.5
B.
We next turn to Golden’s IPR-based takings claims.
We first address whether the Claims Court had jurisdiction
to hear these claims.
The government alleges that, “upon further considera­
tion,” it has identified a jurisdictional problem that was not
recognized below. Appellee’s Br. 40. The government ar­
gues that the American Invents Act (“AIA”)’s creation of

5 Because we find the Claims Court did not have ju­
risdiction to hear Golden’s patent infringement-based tak­
ings claims, we need not address the court’s alternative
holding that these claims are duplicative of the claims in
the Lead Case.

13

Case: 19-2134

Document: 37

Page: 12

Filed: 04/10/2020

GOLDEN v. UNITED STATES

12

inter partes review by the Board, followed by judicial re­
view before this court, creates a “‘self-executing remedial
scheme’ that ‘supersedes the gap-filling role of the Tucker
Act.’” Id. at 41 (quoting United States v. Bormes, 568 U.S.
6, 13 (2012)). According to the government, the AIA statu­
tory scheme displaces Tucker Act jurisdiction because
there is no procedural impediment to presentation of a tak­
ings claim to the agency and because the remedial scheme
provides for judicial review of constitutional challenges to
the agency’s action. Id. at 43—49.
The government’s argument is without merit. In
Bormes, the Supreme Court explained that Tucker Act ju­
risdiction is displaced “when a law assertedly imposing
monetary liability on the United States contains its own ju­
dicial remedies.” 568 U.S. at 12 (emphasis added). More
recently, the Court explained that, “[t]o determine whether
a statutory scheme displaces Tucker Act jurisdiction, a
court must ‘examin[e] the purpose of the [statute], the en­
tirety of its text, and the structure of review that it estab­
lishes.’” Horne v. Dep’t of Agric., 569 U.S. 513, 526-27
(2013) (quoting United States v. Fausto, 484 U.S. 439, 444
(1988)). Thus, when there is a precisely defined statutory
framework for a claim that could be brought against the
United States, the Tucker Act gives way to the more spe­
cific statutory scheme.
Regardless of the structure of review it establishes, the
AIA is not a statute that provides for claims against the
United States. Looking to the purpose and text of the stat­
ute, the AIA represents an overhaul of the U.S. patent sys­
tem from a first-to-invent to a first-to-file regime.
35 U.S.C. § 100. It also establishes post-grant review of
patents. 35 U.S.C. § 321. The government is correct that,
under the AIA, parties may raise constitutional challenges
in our court on appeal from Board decisions. But this re­
medial scheme does not convert the AIA into a statutory
framework for claims against the United States. The AIA

14

Case: 19-2134

Document: 37

Page: 13

Filed: 04/10/2020

13

GOLDEN v. UNITED STATES

is by no means “a law assertedly imposing monetary liabil­
ity on the United States.” Borne, 568 U.S. at 12. Accord­
ingly, we reject the government’s argument that the AIA
displaced Tucker Act jurisdiction over Golden’s IPR-based
takings claims.6
As to the merits of Golden’s IPR-based takings claims,
on appeal, Golden argues, inter alia, that the government’s
actions (including in the IPR) resulted in a reduction of
value of his property, destroyed his competitive edge, and
interfered with his “reasonable investment-backed expec­
tations.” Appellant’s Br. 7—8. We rejected similar argu­
ments in Celgene Corp. v. Peter, 931 F.3d 1342 (Fed. Cir.
2019). There, we explained that inter partes review pro­
ceedings, like patent validity challenges in the district
court, “serve the purpose of correcting prior agency error of
issuing patents that should not have issued in the first
place[.]” Id. at 1361. Additionally, we noted that “[pjatent
owners have always had the expectation that the validity
of patents could be challenged in district court. For forty
years, [they] have also had the expectation that the PTO
could reconsider the validity of issued patents on particular
grounds, applying a preponderance of the evidence stand­
ard.” Id. at 1362-63. Accordingly, we held that retroactive
application of inter partes review proceedings to pre-AIA
patents is not an unconstitutional taking under the Fifth
Amendment. Id. at 1362.
Although Golden does not challenge retroactive appli- '
cation of inter partes review in this case, Celgene controls
the outcome here. Golden, as a patent owner, has “always
had the expectation that the validity of patents could be

6 This does not, of course, alter our conclusion that
an action for patent infringement sounds in tort and the
only avenue to sue the United States government for unau­
thorized licensing of patent rights is a suit pursuant to
28 U.S.C. § 1498. See supra, Section A.

15

Case: 19-2134

Document: 37

Page: 14

Filed: 04/10/2020

GOLDEN v. UNITED STATES

14

challenged in district court” or before the PTO. Id. at
1362-63. Under Celgene, subjecting patents to inter partes
review proceedings is not an unconstitutional taking under
the Fifth Amendment.7 Id. at 1362.
We are mindful, of course, of the unique circumstances
of the IPR in Golden’s case. This IPR was initiated by DHS,
a federal agency. Following the cancellation of certain
claims of his RE43.990 patent in the IPR, the Supreme
Court made clear in Return Mail that “a federal agency is
not a ‘person’ who may petition for post-issuance review
under the AIA.” 139 S. Ct. at 1867. Golden may ar­
gue that, in view of Return Mail, the cancellation of the

7 Although it does not expressly address the issue
here, the government has “not dispute[d] that a valid pa­
tent is private property for the purposes of the Takings
Clause.” Celgene, 931 F.3d at 1358. And, as we noted in
Celgene, the Supreme Court’s recent decision in Oil States
Energy Servs., LLC v. Greene’s Energy Grp., LLC, 138 S.
Ct. 1365 (2018), is not to the contrary. In Oil States, the
Court explained that “the decision to grant a patent is a
matter involving public rights—specifically the grant of a
public franchise.” 138 S. Ct. at 1373 (emphasis in original).
At the same time, it “emphasize [d] the narrowness of [its]
holding” explaining that it was addressing “only the precise
constitutional challenges” raised in that case. Id. at 1379.
The Court admonished that its “decision should not be mis­
construed as suggesting that patents are not property for
purposes of the Due Process Clause or the Takings Clause.”
Id. Despite the Claims Court’s express finding on the sta­
tus of patent rights under the Fifth Amendment, we de­
cline to address that question here, however, because, even
if Golden’s patents are his private property for Takings
Clause purposes, under Celgene, cancellation of patent
claims in inter partes review cannot be a taking under the
Fifth Amendment.

16

Case: 19-2134

Document: 37

Page: 15

Filed: 04/10/2020

15

GOLDEN v. UNITED STATES

patent claims in an inter partes review initiated by the gov­
ernment could be considered an unconstitutional taking
under the Fifth Amendment. We need not decide whether
that is the case, however, for two reasons. First, Golden
did not appeal the Board’s final written decision in the IPR
to this court, and the decision became final before the Re­
turn Mail decision was issued. Second, Golden voluntarily
filed a non-contingent motion to amend the claims on
which the IPR was instituted. His substitute claims were
then found unpatentable. The claims at issue were there­
fore cancelled as result of Golden’s own voluntary actions.
In these circumstances, cancellation of the claims in the
government-initiated inter partes review cannot be charge­
able to the government under any legal theory.
C.
Finally, we address Golden’s arguments regarding the
alleged takings by the Claims Court and the breach of “implied-in-fact contracts” hy the government. Appellant’s Br.
5, 13. As the Claims Court explained, the actions of the
Federal Circuit and the Claims Court cannot be an uncon­
stitutional taking, as both courts “adjudicate rights in pa­
tents.” Claims Court Op. at 4. As to the breach of “impliedin-fact contracts,” it appears these arguments are made ei­
ther in support of Golden’s takings claims, discussed above,
or raised for the first time on appeal. Accordingly, these
arguments are either unpersuasive or waived.
Conclusion
For the foregoing reasons, we affirm the Claims Court’s
decision. We have considered the parties’ remaining argu­
ments and find them unpersuasive.
AFFIRMED

17

Case l:13-cv-00307-EGB Document 171 Filed 05/08/19 Page 1 of 5

3fn tf)£ Urnteb States; Court of Jfeberal Claim#
No. 13-307C
(Filed: May 8, 2019)
**************************

LARRY GOLDEN,

Takings; taking of intangible
patented subject matter; 28
U.S.C. § 1491 (2012); 28
U.S.C § 1498(a) (2012);
subject matter jurisdiction

Plaintiff,
v.
THE UNITED STATES,
Defendant.
********************** * * * *

ORDER GRANTING
DEFENDANT’S MOTION TO DISMISS
BRUGGINK, Judge.
Pending before the court is defendant’s March 18, 2019 motion to
dismiss plaintiffs takings claims under Rules 12(b)(1) and 12(b)(6) of the
Rules of the United States Court of Federal Claims. Defendant argues that
plaintiffs purported takings claims are, in substance, patent infringement
claims, which cannot be brought under the Tucker Act, 28 U.S.C. § 1491
(2012), but must instead be brought under the court’s separate patent
jurisdiction, 28 U.S.C. § 1498(a) (2012). (Plaintiff already has pending
claims under § 1498(a).) Defendant also argues that, in any event, plaintiffs
allegations fail to state a viable takings claim. The motion is fully briefed.
Oral argument is deemed unnecessary. We grant defendant’s motion to
dismiss all of plaintiffs takings claims. In many respects they fail to state a
claim on which relief can be granted, but more importantly, we do not have
jurisdiction over them under the Tucker Act.
The final amended complaint includes two general counts, a takings
claim and a patent infringement claim, followed by a battery of particular
takings and patent infringement allegations. Count I alleges that the United
States has taken “Intangible Patented Subject Matter of U.S. Patents,”
stating:

18

APPENDIX C

Case l:13-cv-00307-EGB Document 171 Filed 05/08/19 Page 2 of 5

87. [T]he United States has “taken” and continues to
“take” the Plaintiffs personal property for the benefit of the
public without paying just compensation for the “takings” ...
[T]he Government has taken the private and personal
Property subject matter as outlined in the Plaintiffs U.S. Patent
No. [lists patent numbers] specifications and patent claims that
are significantly the same or equivalent to the claimed
inventions of the Plaintiff; the Government was given notice,
made aware of, and told or signaled that the private and
personal property subject matter as outlined in the Plaintiffs
patent(s) specifications and patent claims that was taken by the
Government are significantly the same or equivalent to the
claimed inventions of the Plaintiff . . . resulting in the
Government’s manufacture and development of products,
devices, methods, and systems that are significantly the same
or equivalent to the claimed inventions of the Plaintiff... by
virtue of the access, disclosure, manufacture, development or
use, by or for the Government and its third party awardees, has
destroyed the Patent Owner’s competitive edge . . . the
character of the Government’s action was triggered when the
“Takings” caused a permanent physical invasion of the
Plaintiffs property and eliminated all economically beneficial
uses of such property; without authorization and consent from
the Patent Owner and without just compensation to the
Plaintiff.
88. As a result of contracts, agreements, publications,
solicitations, awards, announcements, and grants, the United
States actions and conduct and the actions and conduct of its
agents, including at least the following agencies: [lists
agencies], has used for the benefit of the public, authorized the
use for the benefit of the public, shared intangible subject
matter, without license or legal right, or authorization and
consent from the Plaintiff, Plaintiffs personal property subject
matter as described in and covered by the Plaintiffs [lists
patent numbers] patents.
Final Compl.

87-88. i

1 Plaintiff follows Count I with discreet takings claims that mimic the
language used Countl. Final Compl. 93-95, 98-100, 103-05, 108-10,1132

19

Case l:13-cv-00307-EGB Document 171 Filed 05/08/19 Page 3 of 5

The government contends that the “taking” plaintiff complains of
consists of alleged patent infringement by or for the United States. The rights
at issue are the subject matter of plaintiff’s patents. 28 U.S.C. § 1498(a)
provides a cause of action when a patented invention “is used or
manufactured by or for the United States without license....” The language
plaintiff uses to describe the taking matches the language in § 1498(a):
plaintiff pleads “manufacture... by or for the Government” and “use ... by
or for the Government.” Final Compl. f 87. Plaintiffs use of the terms
manufacture, use, and develop mirror his patent infringement claims.
Defendant argues that plaintiff cannot create jurisdiction under the Tucker
Act by labelling what are in substance infringement claims as a taking.
Plaintiff submitted, by leave of court, an approximately 60-page
response. Mr. Golden argues “[wjhenever the Government use[s] with the
public or contracts with other third party contractors for the development of
Plaintiffs Intellectual Property Subject Matter . . . without just
compensation, the Government has taken the Plaintiffs property . ...” PL’s
Resp. 53. He states that patent infringement is not a prerequisite to bringing
a takings claim under the Fifth Amendment. Mr. Golden spends the bulk of
his response alleging implied-in-fact contracts with various agencies. After
our review of his response and exhibits, we understand Mr. Golden to argue
that his takings claims are not concerned with patent infringement but with
other actions such as alleged breaches of implied-in-fact contracts.
We conclude that plaintiffs “takings” claims seek compensation for
patent infringement that cannot be pursued under the Tucker Act. This court
has jurisdiction under the Tucker Act to adjudicate claims alleging violation
of the Fifth Amendment Takings Clause. See Jan's Helicopter Serv., Inc. v.
F.A.A., 525 F.3d 1299, 1309 (Fed. Cir. 2008). The Supreme Court first held
in Schillinger v. United States, 155 U.S. 163, 168-69 (1894), however, that
the Tucker Act does not confer jurisdiction over a claim that the United States
used a patented invention without authorization, even if pled as a Fifth
Amendment takings claim. Following Schillinger, Congress waived the
15,
60,
13,
59,
04,
49,
94,

118-20, 123-25,
168-70, 173-75,
216-18, 221-23,
262-64, 267-69,
307-09, 312-14,
352-54, 357-59,
397-99,402-04.

128-30,
181-83,
227-29,
272-74,
317-19,
362-64,

133-35,138-40, 143-45, 148-50,
186-88,191-93, 196-98, 201-03,
232-34, 237-39, 242-44, 247-49,
277-79, 282-84, 287-89, 292-94,
322-24, 327-29, 332-34, 337-39,
367-69,372-74, 377-79, 382-84,
3

20

153-55, 158206-08, 211252-54, 257297-99, 302342-44, 347387-89, 392-

Case l:13-cv-00307-EGB Document 171 Filed 05/08/19 Page 4 of 5

government’s sovereign immunity regarding certain patent infringement
claims by enacting a new statute, the predecessor to 28 U.S.C. § 1498. Patent
infringement claims against the United States have since been brought
exclusively as claims under § 1498(a). The Federal Circuit and this court
have confirmed that a Fifth Amendment claim under the Tucker Act is not
an alternative to suing for patent infringement under the now-existing §
1498(a). Christy, Inc. v. United States, 141 Fed. Cl. 641, 659-60 (2019);
Keehn v. United States, 110 Fed. Cl. 306, 335 (2013); Demodulation v.
United States, 103 Fed. Cl. 794, 810-11 (2012); Lamson v. United States, 101
Fed. CL 280, 284-85 (2011); see also Zoltekv. United States, 442 F.3d 1345,
1350-53 (Fed. Cir. 2006), vacated on other grounds, 672 F.3d 1309, 1326
(Fed. Cir. 2012) (en banc).
Plaintiffs takings claims are only concerned with the subject matter
of his patents. Each takings claim is paired with a patent infringement claim
relating to the same patents and government action. E.g., Final Compl. 9397 (both takings and infringement claims relate to the “LG Electronics G5
Smartphone”). The final complaint offers only headings to distinguish
between the types of claims. Mr. Golden properly sought relief for patent
infringement under § 1498(a). Most of those claims have been dismissed.
Simply labeling the same government action a “taking” rather than patent
infringement does not transform the claim into one justiciable under the
Tucker Act as a violation of the Takings Clause of the Fifth Amendment. We
thus dismiss plaintiffs purported takings claims for lack of subject matter
jurisdiction.
Defendant also argues that plaintiff fails to state a claim upon which
relief can be granted. We agree. This problem arises by virtue of the fact that
plaintiffs allegations are internally inconsistent and vague. Plaintiff cannot
state a claim for a “taking” by alleging that the government used information
disclosed, but not claimed by, plaintiffs patents. Johnson & Johnston
Assocs. v. R.E. Serv. Co., 285 F.3d 1046, 1054 (Fed. Cir. 2012). Similarly,
plaintiff cannot state a claim for a “taking” by alleging that the government
disclosed information that plaintiff himself had necessarily disclosed through
patent prosecution. See Festo Corp. v. Shoketsu Kogyo Kabushiki Co., 535
U.S. 722, 731 (2002). Plaintiff also references unlawful or unauthorized
actions by the government throughout the complaint. E.g., Final Compl.
134,144,154 (“interagency exchange of unauthorized information... shared
intangible subject matter without a license or legal right”). A hallmark of a
Fifth Amendment takings claim is a litigant’s concession that the
government’s behavior is lawful; thus, plaintiff cannot state a “takings” claim
to the extent he alleges the government’s action was unlawful. See Crocker
4

21

Case l:13-cv-00307-EGB Document 171 Filed 05/08/19 Page 5 of 5

v. United States, 125 F.3d 1475, 1476 (Fed. Cir. 1997). Taken together,
plaintiff’s claims lack elements necessary to state a taking and must be
dismissed for failing to state a claim on which relief can be granted.
Finally, plaintiff spends many pages in his response discussing breach
of implied-in-fact contracts and tying breach of those contracts to his takings
claims, but none of this material is present in plaintiff’s five amended
complaints. Rule 15(a)(2) requires plaintiff to seek the opposing party’s
consent or the court’s leave to amend the complaint. The court will freely
grant leave to amend “when justice so requires.” Id. Plaintiff has not moved
to amend the final complaint. In the past, the court has freely allowed plaintiff
to amend the complaint, but we also communicated to plaintiff that the fifth
amended complaint must be the final, comprehensive statement of his
allegations against the United States. May 25, 2017 Order, ECF No. 116
(“[T]he court has determined that Plaintiff may amend his complaint and
claim chart one final time, prior to the court’s ruling on jurisdiction. . . .
Plaintiff will file a Fifth and Final Amended Complaint, wherein Plaintiff
will allege all claims asserted against the government.”) To the extent that
any aspect of plaintiff’s response to the motion to dismiss could be construed
as a motion to amend, that motion is denied. The court will not consider any
of these new allegations in relation to the motion to dismiss or moving
forward with this matter.
The court therefore grants defendant’s motion to dismiss plaintiff’s
takings claims. The only claims remaining in this case are eleven claims of
patent infringement relating to three patents that survived the government’s
motion to dismiss certain patent infringement claims; those claims are poised
for claim construction. The parties are directed to file a status report
proposing a schedule for next steps in this matter on or before May 31,2019.

ERIC G. BRUGGINK
Senior Judge

5

22

d 03/29/18 Page lot39 NLED

Case l:13-cv-00307-SG©

MAR 2 9 2018
U.S. COURT OF

3fn tfie ®nttefc

Court of jfoboral CfatmVL MS
No. 13-307C
Filed: March 29,2018

ft************************************

LARRY GOLDEN,

45 C.F.R. § 75.435(h) (Uniform
Administrative Requirements);
48 C.F.R. § 2.101(b) (Federal Acquisition
Regulations Definitions);
28 U.S.C. §§ 1491(a) (Tucker Act
Jurisdiction), 1498(a) (Patent
Infringement Jurisdiction), 1927
(Liability for Excessive Costs);
31 U.S.C. §§ 6303 (Using Procurement
Contracts), 6304 (Using Grant
Agreements), 6305 (Using
Cooperative Agreements);
35 U.S.C. §§ 102 (Novelty), 103
(Obviousness), 111(a),(b)
(Application for Patent), 120 (Benefit
of Earlier Filing Date), 251 (Reissue
of Defective Patents), 252 (Effect of
Reissue);
Manual of Patent Examining Procedure
(9th ed. 2015); and
Rule of the United States Court of
Federal Claims 12(b)(1)
(Jurisdiction), 12(b)(6) (Failure to
State a Claim), 12(h)(3) (Lack of
Subject-Matter Jurisdiction), 15(a)
(Amendments Before Trial), 41(b)
(Dismissal of Actions), 56(e), (f)
(Summary Judgment).

*
*
*
*
*
*
*
*
*
*
♦

*
*
*
v.
*
*
THE UNITED STATES,
*
*
Defendant.
*
*
*
*
*
*
*
*
*
+************************************

Plaintiff, pro se,

Larry Golden, Greenville, South Carolina, pro se.
Nicholas Jae-Ryoung-Kim, United States Department of Justice, Civil Division, Washington,
D.C., Counsel for the Government.
MEMORANDUM OPINION AND ORDER GRANTING-IN-PART AND
DENYING-IN-PART THE GOVERNMENT’S MOTION FOR PARTIAL DISMISSAL
BRADEN, ChiefJudge.

23

APPENDIX D

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 2 of 39

To facilitate review of this Memorandum. Opinion And Order, the court has provided the
following outline.
I.

II.

RELEVANT FACTUAL BACKGROUND.
A.
The Prosecution History Of The Relevant United States Patent Applications.
B.
National Science Foundation Grants And Cooperative Agreements.
C.
National Institutes Of Health Grants.
PROCEDURAL HISTORY.

in.

STANDARD OF REVIEW.
A.
Jurisdiction.
B.
Standard Of Review For A Motion To Dismiss Under RCFC 12(b)(1).
C.
Standard Of Review For A Motion To Dismiss Under RCFC 12(b)(6).
D.
Standard Of Review For Pro Se Litigants.

IV.

DISCUSSION.
A.
Whether Certain Patent Infringement Allegations In The August 10, 2017 Fifth
Amended Complaint Should Be Dismissed Under RCFC 12(b)(1) And 12(b)(6).
1.
Patent Infringement Allegations In The August 10,2017 Fifth Amended
Complaint.
2.
The Government’s Argument.
3.
Plaintiffs Response And Motion For Leave To File A Motion For
Summary Judgment.
4.
The Government’s Reply And Opposition To Plaintiff’s Motion For Leave
To File A Motion For Summary Judgment.
5.
Plaintiffs Reply.
6.
The Court’s Resolution.
a.
Governing Precedent.
b.
Patent Infringement Allegations Concerning National Science
Foundation Grants And Cooperative Agreements Must Be
Dismissed Under RCFC 12(b)(1).
i.
Regarding National Science Foundation Grants.
ii.
Regarding National Science Foundation Cooperative
Agreements,
c.
Patent Infringement Allegations Concerning National Institutes Of
Health Grants Must Be Dismissed Under RCFC 12(b)(1).
d.
Patent Infringement Allegations Concerning The Government’s
Alleged Use Of “Smartphones And Other Consumer Devices”
Must Be Dismissed Under RCFC 12(b)(1) And 12(b)(6).

2

24

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 3 of 39

e.
f.
g-

h.

V.

Patent Infringement Allegations Concerning Broad Agency
Announcements Must Be Dismissed Under RCFC 12(b)(6).
Patent Infringement Allegations Concerning The ’033 Patent Must
Be Dismissed Under RCFC 12(b)(1).
Patent Infringement Allegations Concerning Unissued Patent
Applications And Pre-Issuance Use Or Manufacture Must Be
Dismissed Under RCFC 12(b)(1).
Patent Infringement Allegations Concerning The ’761, ’280, And
’189 Patents Must Be Dismissed Under RCFC 12(b)(6).

CONCLUSION.

3

25

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 4 of 39

I.

RELEVANT FACTUAL BACKGROUND.1
A.

The Prosecution History Of The Relevant United States Patent Applications.

On April 5, 2006, Larry Golden filed U.S. Patent Application No. 11/397,118 (the “’118
Application”), entitled “Multi Sensor Detection And Lock Disabling System,” with the United
States Patent and Trademark Office (the “USPTO”).2 2/12/16 Am. Compl. Ex. B. The ’118
Application “pertain[ed] to anti-terrorist detection and prevention systems, and more particularly
pertain[ed] to a disabling lock mechanism combined with a chemical/biological/radiological
detection system for use with products grouped together by similar characteristics in order to
prevent unauthorized entry, contamination[,] and terrorist activity.” 2/12/16 Am. Compl. Ex. B.
On June 6, 2008, Mr. Golden filed a continuation-in-part3 of the ’118 Application, U.S.
Patent Application No. 12/155,573 (the “’573 Application”). 2/12/16 Am. Compl. Ex. C.
On June 10, 2008, the USPTO issued the ’118 Application, as U.S. Patent No. 7,385,497
(the “’497 Patent”). 2/12/16 Am. Compl. Ex. B.

l

The relevant facts discussed herein were derived from: exhibits attached to the February
12, 2016 Amended Complaint (“2/12/16 Am. Compl. Ex. A-I”); the August 10, 2017 Fifth
Amended Complaint (“8/10/17 Am. Compl.”); and exhibits attached to the Government’s October
20, 2017 Motion For Partial Dismissal (“10/20/17 Gov’t Mot. Ex. 1-22”). See Moyer v. United
States, 190 F.3d 1314, 1318 (Fed. Cir. 1999) (“Fact-finding is proper when considering a
motion to dismiss where the jurisdictional facts in the complaint... are challenged.”); see also
Ferreiro v. United States, 350 F.3d 1318, 1324 (Fed. Cir. 2003) (the trial court “may weigh
relevant evidence when it considers a motion to dismiss that challenges the truth ofjurisdictional
facts alleged in a complaint”).
2 The examination of a patent application at the USPTO
begins with the applicant filing the application itself... . [Tjhis application can be
one of two basic types. The usual course is to file a regular application^ i.e., a
nonprovisional application,] under [35 U.S.C. §] 111(a). The statute has
been ... amended, however, to permit the filing of a provisional application as set
out in [35 U.S.C. §] 111(b). This latter form of application is not itself subject to
examination, although it can be followed by a regular application within a year.
The provisional application is in the nature of a domestic priority document.
R. Carl Moy, Moy’s Walker on Patents § 3:3 (4th ed. 2003).
3 “A continuation-in-part is an application filed during the lifetime of an earlier
nonprovisional application, repeating some substantial portion or all of the earlier nonprovisional
application and adding matter not disclosed in the said earlier nonprovisional application.”
Manual of Patent Examining Procedure (“MPEP”) § 201.08 (9th ed. 2015).
4

26

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 5 of 39

On December 22, 2009, the USPTO issued the ’573 Application, as U.S. Patent No.
7,636,033 (the “’033 Patent”). 2/12/16 Am. Compl. Ex. C.
On January 20,2010, Mr. Golden filed a continuation4 of the ’573 Application, U.S. Patent
Application No. 12/657,356 (the “’356 Application”). 2/12/16 Am. Compl. Ex. D.
On May 27, 2010, Mr. Golden filed a continuation of the ’356 Application, U.S. Patent
Application No. 12/802,001 (the “’001 Application”). 2/12/16 Am. Compl. Ex. E.
On March 31,2011, Mr. Golden filed a reissue application5 of the ’033 Patent, U.S. Reissue
Application No. 13/065,837 (the “’837 Application”). 2/12/16 Am. Compl. Ex. G.
On September 9, 2011, Mr. Golden filed a second reissue application of the ’033 Patent,
U.S. Reissue Application No. 13/199,853 (the “’853 Application”). 2/12/16 Am. Compl. Ex. H.
On November 3,2011, Mr. Golden filed a divisional application6 of the ’001 Application,
U.S. Patent Application No. 13/288,065 (the “’065 Application”). 2/12/16 Am. Compl. Ex. F.
On January 31,2012, the USPTO issued the ’356 Application, as U.S. Patent No. 8,106,752
(the “’752 Patent”). 2/12/16 Am. Compl. Ex. D.

4«

A continuation application is an application for the invention(s) disclosed in a prior-filed
copending nonprovisional application. . .. The disclosure presented in the continuation must not
include any subject matter which would constitute new matter if submitted as an amendment to
the parent application.” MPEP § 201.07.
Although Mr. Golden filed the ’356 Application as a “continuation” of the ’573
Application, the ’356 Application was filed after issuance of the ’573 Application, i. e., when the
’573 Application was no longer pending. See 35 U.S.C. § 120 (“An application for patent for an
invention disclosed ... in an application previously filed in the United States,. . . shall have the
same effect, as to such invention, as though filed on the date of the prior application, iffiled before
the patenting or abandonment of or termination of proceedings on the first application or on an
application similarly entitled to the benefit of the filing date of the first application[.]” (emphasis
added)); see also MPEP § 201.07.
5 Defective patents may be corrected by “reissue.” See 35 U.S.C. § 251(a) (“Whenever
any patent is, through error, deemed wholly or partly inoperative or invalid, by reason of a
defective specification or drawing, or by reason of the patentee claiming more or less than he had
a right to claim in the patent, the Director shall, on the surrender of such patent and the payment
of the fee required by law, reissue the patent for the invention disclosed in the original patent, and
in accordance with a new and amended application, for the unexpired part of the term of the
original patent.”).
6

A divisional application is “[a] later application for an independent or distinct invention,
carved out of a nonprovisional application . . . disclosing and claiming only subject matter
disclosed in the earlier or parent application^]” MPEP § 201.06.
5

27

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 6 of 39

On December 18, 2012, the USPTO issued the ’001 Application, as U.S. Patent No.
8,334,761 (the “’761 Patent”). 2/12/16 Am. Compl. Ex. E.
On January 1, 2013, the USPTO issued the ’837 Application, as U.S. Reissue Patent No.
RE43.891 (the “’891 Patent”). 2/12/16 Am. Compl. Ex. G.
On February 12,2013, the USPTO issued the ’853 Application, as U.S. Reissue Patent No.
RE43,990 (the “’990 Patent”). 2/12/16 Am. Compl. Ex. H.
On September 9,2013, Mr. Golden filed a continuation of the ’065 Application, U.S. Patent
Application No. 14/021,693 (the “’693 Application”). 2/12/16 Am. Compl. Ex. I.
On September 10, 2013, the USPTO issued the ’065 Application, as U.S. Patent No.
8,531,280 (the “’280 Patent”). 2/12/16 Am. Compl. Ex. F.
On July 23, 2015, Mr. Golden filed a continuation of the ’693 Application, U.S. Patent
Application No. 14/806,988 (the “’988 Application). 8/10/17 Am. Compl. ^ 36; see also U.S.
Patent No. 9,589,439.
On August 4,2015, the USPTO issued the ’693 Application, as U.S. Patent No. 9,096,189
(the “’189 Patent”). 2/12/16 Am. Compl. Ex. I.
On March 6, 2017, Mr. Golden filed a continuation of the ’988 Application, U.S. Patent
Application No. 15/530,839 (the “’839 Application”). 8/10/17 Am. Compl. ^ 3.
On March 7, 2017, the USPTO issued the ’988 Application, as U.S. Patent No. 9,589,439
(the “’439 Patent”). 8/10/17 Am. Compl. ^ 36; see also ’439 Patent.
On June 29, 2017, the USPTO published the ’839 Application, as U.S. Publication No.
2017/0186259. 8/10/17 Am. Compl. % 3.
As a result of the aforementioned USPTO actions, Mr. Golden became the “sole owner of
the entire right, title, and interest in and to” the ’497, ’033, ’752, ’761, ’891, ’990, ’280, ’189, and
’439 Patents, as well as the ’839 Application. 8/10/17 Am. Compl. ^ 38; see also 2/12/16 Am.
Compl. Ex. B-I.
The following Court Exhibit A shows the order in which each of the aforementioned patent
applications was filed by Mr. Golden and issued by the USPTO.

6

28

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 7 of 39

COURT EXHIBIT A
ISSUED PATENTS

•tllAPPIJCATlONSlfltl

lMO®

The ’118 Application £
(Filed: 4/5/2006)
■I?
j^siy%&%}{■$&
I
The *573 Application [si
^
(Filed: 6/6/2008)
|i

-,' APPLICATIONS

ISSSSS83S;

^ss^ssmis

%
The ’497 Patent
(Issued: 6/10/2008)
1
---....-........................ if
The ’033 Patent
S
(Issued: 12/22/2009)

l
MM Li
HI'®
SlSSiiii *iii»!
otmmni
I The ’356 Application J
:i'
(Filed: 1/20/2010)
1
41 The’001 Application jj

I

(Filed: 5/27/2010)

|

1

i The’065 Application |_
I
(Filed: 11/3/2011)
|

jlMlBBjgarll
111811111I
S'

1
$

»»s»

I
I

1if

i

| The ’853 Application *|i
I
(Filed: 9/9/2011)
f

The ’752 Patent
(Issued: 1/31/2012)

The ’761 Patent
(Issued: 12/18/2012)

a
I
ss

The ’891 Patent
(Issued: 1/1/2013)

psalipt^ I ™ fI.
i TSS°n "71

fe^Sli2g|i 4 (S^i^Ta) li
I T^iied8'^oi?f>n | IwawwiiaBirt
^‘^m) ft
7

Sed^SlT)
7

29

|

mvmm

NMHI
MBS
MM
^5

immune

mmmm
m*

Case 1:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 8 of 39

B.

National Science Foundation Grants And Cooperative Agreements.

In July 2004, the National Science Foundation (the “NSF”)7 issued "Cooperative
Agreement Financial & Administrative Terms and Conditions” (the “2004 CA-FATCs”), to advise
recipients that the “NSF cannot assume any liability for accidents, illnesses, injuries, or claims
arising out of, or related to, any activities supported by an award or for unauthorized use of
patented or copyrighted materials.” 10/20/17 Gov’t Mot. Ex. 15 (Article 38).
On September 1, 2004, the NSF awarded Cooperative Agreement No. EEC-0425914,
“Integrated Nanomechanical Systems (COINS),” to the University of California, Berkeley (“UC
Berkeley”), incorporating the 2004 CA-FATCs. 10/20/17 Gov’t Mot. Ex. 20.
On July 1, 2007, the NSF issued “Cooperative Agreement Financial & Administrative
Terms and Conditions” (the “2007 CA-FATCs”), to advise recipients that the “NSF cannot assume
any liability for accidents, illnesses, injuries, or claims arising out of, or related to, any activities
supported by an award or for unauthorized use of patented or copyrighted materials,” 10/20/17
Gov’t Mot. Ex. 15 (Article 39).
On September 1,2009, the NSF awarded Cooperative Agreement No. EEC-0832819, “The
Center of Integrated Nanomechanical Systems (COINS) Renewal Years 6-10,” to UC Berkeley,
incorporating the 2007 CA-FATCs. 10/20/17 Gov’t Mot. Ex. 21.
On January 4,2010, the NSF issued “Research Terms & Conditions” (the “2010 RT&Cs”),
to advise recipients that the “NSF cannot assume any liability for accidents, illnesses or claims
arising out of any work supported by an award or for unauthorized use of patented or copyrighted
materials.” 10/20/17 Gov’t Mot. Ex. 15 (Article 25).
On August 19, 2010, the NSF awarded GrantNo. CCF-1029585, “Collaborative Research:
Computational Behavioral Science: Modeling, Analysis, and Visualization of Social and
Communicative Behavior,” to the Massachusetts Institute of Technology (“MIT”), incorporating
the 2010 RT&Cs. 10/20/17 Gov’t Mot. Ex. 6.
On January 14, 2013, the NSF issued “Research Terms & Conditions” (the “2013
RT&Cs”), to advise recipients that the "NSF cannot assume any liability for accidents, illnesses
or claims arising out of any work supported by an award or for unauthorized use of patented or
copyrighted materials.” 10/20/17 Gov’t Mot. Ex. 15 (Article 32).

7 The NSF is “an independent federal agency created by Congress in 1950 ‘to promote the
progress of science; to advance the national health, prosperity, and welfare; to secure the national
defensef.]’ . . . With an annual budget of $7.5 billion (FY 2017), [the NSF is] the funding source
for approximately 24 percent of all federally supported basic research conducted by America’s
colleges and universities.” About the National Science Foundation, Nat’l Sci. FOUND.,
https://www.nsf.gov/about/ (last visited March 7, 2018).
8

30

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 9 of 39

On January 14, 2013, the NSF also awarded Grant No. CBET-1264377, “Multimode
Smartphone Biosensor,” to the University of Illinois at Urbana-Champaign (“UIUC”),
incorporating the 2013 RT&Cs. 10/20/17 Gov’t Mot. Ex. 7.
On July 16,2013, the NSF awarded Grant No. EFRI-1332275, “EFRI-BioFlex: Cellphonebased Digital Immunoassay Platform for High-throughput Sensitive and Multiplexed Detection
and Distributed Spatio-Temporal Analysis of Influenza,” to the University of California, Los
Angeles (“UCLA”), incorporating the 2013 RT&Cs. 10/20/17 Gov’t Mot. Ex. 11.
On March 7, 2014, the NSF issued “Research Terms & Conditions” (the “2014 RT&Cs”),
to advise recipients that the “NSF cannot assume any liability for accidents, illnesses or claims
arising out of any work supported by an award or for unauthorized use of patented or copyrighted
materials.” 10/20/17 Gov’t Mot. Ex. 15 (Article 34).
On June 13, 2014, the NSF awarded Grant No. CBET-1444240, “EAGER: Mobile-phone
based single molecule imaging of DNA and length qualification to analyze copy-number variations
in genome,” to UCLA, incoiporating the 2014 RT&Cs. 10/20/17 Gov’t Mot. Ex. 10.
On July 3, 2014, the NSF awarded Grant No. CBET-1447893, “EAGER: Lab-in-aSmartphone,” to UIUC, incorporating the 2014 RT&Cs. 10/20/17 Gov’t Mot. Ex. 8.
On July 25, 2014, the NSF awarded Grant No. IIP-1450552, “I-Corps: Nanophosphors as
Ultra-Sensitive Lateral Flow Reporters in a Lab-on-Phone Platform,” to the University of Houston
(“UH”), incorporating the 2014 RT&Cs. 10/20/17 Gov’t Mot. Ex. 12.
On August 11, 2014, the NSF awarded Grant No. CBET-1343058, “INSPIRE Track 2:
Public Health, Nanotechnology, and Mobility (PHeNoM),” to Cornell University (“Cornell”),
incoiporating the 2014 RT&Cs. 10/20/17 Gov’t Mot. Ex. 9.
On December 26, 2014, the NSF issued “Grant General Conditions (GC-1)” (the “2014
GGCs”), to advise recipients that the “NSF cannot assume any liability for accidents, bodily injury,
illness, breach of contract, any other damages or loss, or any claims arising out of activities
undertaken pursuant to the grant, whether with respect to persons or property of the grantee or
third parties.” 10/20/17 Gov’t Mot. Ex. 15 (Section 45).
On August 6, 2015, the NSF awarded Grant No. 1533983, “PFI: BIC Human-Centered
Smart-Integration of Mobile Imaging and Sensing Tools with Machine Learning for Ubiquitous
Quantification of Waterborne and Airborne Nanoparticles,” to UCLA, incorporating the 2014
GGCs. 10/20/17 Gov’t Mot. Ex. 13.
On August 22, 2015, the NSF awarded Grant No. 1534126, “PFI: BIC-Pathtracker: A
smartphone-based system for mobile infectious disease detection and epidemiology,” to UIUC,
incorporating the 2014 GGCs. 10/20/17 Gov’t Mot, Ex. 14.

9

31

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 10 of 39

C.

National Institutes Of Health Grants.

On February 18, 2014, the National Institutes of Health (the “NIH”)8 awarded Grant No.
1R43AI107984-01A1, “A Sensitive and Serotype-Specific Dengue Diagnostic Test for LowResource Setting,” to AI Biosciences, Inc. 10/20/17 Gov’t Mot. Ex. 19.
On January 20, 2015, the NIH awarded Grant No. 1R43CA193096-01, “KS Detect: A
solar-powered and smartphone integrated instrument for point-of-care diagnosis of Kaposi’s
sarcoma,” to A’AS Inc. 10/20/17 Gov’t Mot. Ex. 18. This grant was “subject to”
45 C.F.R. § 75.435(h).9 10/20/17 Gov’t Mot. Ex. 18.
On December 23,2015, the NIH awarded Grant No. 1R21AI120973-01, “Field-deployable
Assay for Differential Diagnosis of Malaria and Viral Febrile Illnesses,” to Sandia National
Laboratories. 10/20/17 Gov’t Mot. Ex. 16. This grant also was “subject to” 45 C.F.R. §75.435(h).
10/20/17 Gov’t Mot. Ex. 16.
On June 20,2016, the NTH awarded Grant No. 1R01EB021331-01, “FeverPhone: Point of
Care Diagnosis of Acute Febrile Illness using a Mobile Device,” to Cornell. 10/20/17 Gov’t Mot.
Ex. 17. And, this grant was “subject to” 45 C.F.R. § 75.435(h). 10/20/17 Gov’t Mot. Ex. 17.
H.

PROCEDURAL HISTORY.

On May 1, 2013, Mr. Golden (“Plaintiff’) filed a Complaint in the United States Court of
Federal Claims (ECF No. 1) (“5/1/13 Compl.”), alleging that the United States Department of
Homeland Security (the “DHS”) infringed the ’990 Patent. 5/1/13 Compl. 1-2.
On August 15, 2013, Plaintiff filed a “Notice of Supplement,”10 providing “supplemental
material” to support Plaintiffs May 1, 2013 Complaint. ECF No. 6.
On September 5, 2013, the Government filed a Motion For A More Definite Statement,
pursuant to RCFC 12(e), requesting that Plaintiff amend Plaintiffs May 1, 2013 Complaint to
incorporate numbered paragraphs, enumerate with particularity the devices or processes that
allegedly infringe Plaintiffs patents, and identify the party-in-interest. ECF No. 9.
8

The NIH is “apart of the U.S. Department of Health and Human Services,” and “is the
largest source of funding for medical research in the world[,]” Who We Are, Nat’L Insts. OF
Health, https://www.nih.gov/about-nih/who-we-are (last visited March 7,2018).
9 45 C.F.R. § 75.435(h) provides that the “[cjosts of legal, accounting, and consultant
services, and related costs, incurred in connection with patent infringement litigation, are
unallowable unless otherwise provided for in the ... award.” 45 C.F.R. § 75.435(h)
10 The court considered Plaintiffs August 15, 2013 ‘Notice of Supplement” as an
Amended Complaint, filed pursuant to Rule of the United States Court of Federal Claims
(“RCFC”) 15(a)(1). ECF No. 21 (“On August 15, 2013, Plaintiff filed a Notice of Supplement
that the court interprets as an Amended Complaint.”).
10

32

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 11 of 39

On September 20, 2013, Plaintiff filed: a Motion To Strike Defendant’s Motion For A
More Definite Statement, pursuant to RCFC 12(f) (ECF No. 10); a Motion To Amend Complaint
(ECF No. 11); a Response to the Government’s September 5, 2013 Motion For A More Definite
Statement (ECF No. 12); a Motion For Summary Judgment (ECF No. 13); and a Motion To
Supplement Pleadings. ECF No. 14.
On October 15,2013, Plaintiff filed a second Response to the Government’s September 5,
2013 Motion For A More Definite Statement that the court considered as a Second Amended
Complaint, filed with the court’s leave, pursuant to RCFC 15(a)(2). ECF No. 19.
On October 21, 2013, the court granted the Government’s September 5, 2013 Motion For
A More Definite Statement, because Plaintiff’s May 1, 2013 Complaint, August 15, 2013
Amended Complaint, and October 15, 2013 Second Amended Complaint were vague and
ambiguous making it difficult for the Government to prepare an informed Answer. ECF No. 21.
That same day, the Government filed a Response To Plaintiffs Motion For Summary Judgment.
ECF No. 22.
On November 22,2013, Plaintiff filed a More Definite Statement. ECF No. 24.
On December 20, 2013, the court denied Plaintiffs September 20, 2013 Motion For
Summary Judgment, without prejudice, since the Government had not filed an Answer. ECF No.
28.
On December 30, 2013, Plaintiff filed a Motion To Amend And Supplement Pleadings Of
The More Definite Statement. ECF No. 29.
On January 10, 2014, the Government filed an Answer to Plaintiffs December 30, 2013
Motion To Amend And Supplement Pleadings.11 ECF No. 30.
On February 7, 2014, the court granted Plaintiffs December 30, 2013 Motion to Amend
And Supplement Pleadings and ordered the parties to treat that motion as a Third Amended
Complaint, filed by leave of the court, pursuant to RCFC 15(a)(2), superseding all prior
complaints. ECF No. 32.
On March 31,2014, the court issued an Order staying Plaintiffs Fifth Amendment Takings
Clause claims and directing the parties to “proceed with Plaintiffs claims only as they relate to
the alleged patent infringement by the United States.” ECF No. 38.
On April 30,2014, the DHS filed a petition for an inter partes review (“IPR”)12 of the ’990
Patent before the USPTO Patent Trial and Appeal Board (the “PTAB”).
11 The Government considered Plaintiffs December 30,2013 Motion To Amend Pleadings
as filed by leave of the court and, therefore, superseded Plaintiffs November 22, 2013 More
Definite Statement. ECF No. 30.at n.l.
12 IPR is “a trial proceeding conducted at the [USPTO] to review the patentability of one
or more claims in apatent only on a ground that could be raised under [35 U.S.C.] §§ 102 or 103,
11

33

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 12 of 39

On October 8,2014, the PTAB issued a Decision To Institute IPR of claims 11,74, and 81
of the ’990 Patent. See Dep Y of Homeland Sec. v. Golden, IPR2014-00714, 2014 WL 6999625,
at *1 (P.T.A.B. Oct. 8, 2014). Although the court did not stay this case while the PTAB
proceedings were ongoing, the court did not take any substantive action during that time.
On October 1, 2015, the PTAB issued a final decision “granting] Patent Owner’s Motion
to Amend . . . claims 11, 74, and 81 of the ’990 Patent, and den[ying] the Motion to
Amend . .. claims 154—156.” See Dep’t ofHomeland Sec. v. Golden, IPR2014-00714, 2015 WL
5818910, at *17 (P.T.A.B. Oct. 1, 2015). On November 17, 2015, the PTAB denied Plaintiffs
request for a rehearing ofthePTAB’s decisions. See Dep Y ofHomeland Sec. v. Golden, 1PR201400714, 2015 WL 10381775 (P.T.A.B. Nov. 17, 2015).
On December 22, 2015, the court convened a telephone status conference to discuss how
the case should proceed in light of the PTAB’s final decision. ECF No. 67 (transcript). On
December 23, 2015, the court issued an Order granting Plaintiff leave to file a fourth amended
complaint, pursuant to RCFC 15(a)(2). ECFNo. 65.
On February 12, 2016, Plaintiff filed a Fourth Amended Complaint. ECF No. 68. On
February 19, 2016, Plaintiff filed a Claim Chart. ECF No. 69.
On April 8,2016, the Government filed an Answer to Plaintiff’s February 12,2016 Fourth
Amended Complaint. ECF No. 74.
On June 3, 2016, Plaintiff filed a Motion For Summary Judgment On Validity. ECF No.
79. On June 6, 2016, Plaintiff filed: a Motion For Response To Claim Charts (ECF No. 80); a
Motion To Stay (ECF No. 81); and a Motion For Entry Of Devices. ECF No. 82. On June 8,
2016, Plaintiff filed a Motion For Entry Of Estimated Damages And Accounting Report. ECF No.
84.

On June 10, 2016 the court convened a telephone status conference. ECF No. 87
(transcript). On June 13,2016, the court issued an Order directing the Government to file a Motion
To Dismiss and staying Plaintiffs June 3, 2016 Motion For Summary Judgment and June 8,2016
Motion For Entry Of Estimated Damages And Accounting Report. ECF No. 85.
On June 24, 2016, the Government filed a Motion To Dismiss Certain Accused Devices.
ECF No. 88. On November 30, 2016, the court denied the Government’s June 24, 2016 Motion
To Dismiss, without prejudice. ECF No. 94.
On December 16, 2016, the court issued a Discovery Order allowing the parties to
exchange jurisdictional discovery. ECFNo. 97.
On February 3,2017, the court issued an Order dismissing the following filings by Plaintiff,
without prejudice: Plaintiff’s June 3,2016 Motion For Summary Judgment On Validity; Plaintiffs
and only on the basis of prior art consisting of patents or printed publications.” Inter Partes
Review, U.S. PATENT & TRADEMARK OFFICE, https://www.uspto.gov/patents-application-process/
appealing-patent-decisions/trials/inter-partes-review (last visited March 12,2018).
12

34

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 13 of 39

June 6, 2016 Motion For Response To Claim Charts; Plaintiffs June 6, 2016 Motion To Stay;
Plaintiffs June 6, 2016 Motion For Entry Of Devices; and Plaintiff’s June 8, 2016 Motion For
Entry Of Estimated Damages And Accounting Report. ECFNo. 100.
On March 1, 2017, and prior to the completion of the court-ordered discovery, Plaintiff
filed a Motion For Response To The February 19, 2016 Claim Chart. ECF No. 102. On March
24, 2017, Plaintiff filed a Motion To Supplement Plaintiffs Claim Chart (ECF No. 107) and a
Motion To Supplement The Amended Complaint. ECF No. 108. On April 11, 2017, Plaintiff
filed a second Motion for Summary Judgment On Validity. ECF No. 111.
On May 15,2017, Plaintiff filed a “Motion To Supplement The Amended Complaint With
Pleadings Of 28 U.S.C. § 1491 ‘Government Fifth Amendment Takings Of A Patent(s).’” ECF
No. 114.
On May 24,2017, the court convened a telephone status conference, wherein Plaintiff was
directed “to file a [Fifth Ajmended [CJomplaint that include[d] all of [Plaintiffs] concerns, all of
[Plaintiffs] charges against the Government in one document.... No more supplements, no more
anything else. Whatever is in that document will be what we’re going to continue the case on.”
ECFNo. 118.
On May 25,2017, the court issued an Order denying all of Plaintiff’s pending motions, i.e.,
Plaintiff’s March 1, 2017 Motion For Response To Claim Chart; Plaintiffs March 24, 2017
Motion To Supplement Plaintiffs Claim Chart; Plaintiffs March 24,2017 Motion To Supplement
The Amended Complaint; Plaintiff’s April 11,2017 Motion for Summary Judgment On Validity;
and Plaintiffs May 15, 2017 Motion To Supplement The Amended Complaint. ECF No. 116.
The May 25, 2017 Order also stated that “Plaintiff may amend his complaint and claim chart one
final time, prior to the court’s ruling on jurisdiction. Plaintiff is ordered not to file any other
motions or papers without leave ofthe court." ECF No. 116 at 2 (emphasis added).
On August 10, 2017, Plaintiff filed a Fifth Amended Complaint (“8/10/17 Am. Compl.”)
(ECFNo. 120) and a Final Claim Chart. ECFNo. 121. Plaintiffs August 10,2017 Fifth Amended
Complaint alleges that the Government: (1) violated the Fifth Amendment of the United States
Constitution by taking for public use the ’497, ’033, ’752, ’761, ’280, ’891, ’990, ’189, and ’439
Patents, without just compensation; and (2) is liable for infringement of the ’497, ’033, ’752, ’761,
’280, ’891, ’990, ’189, and ’439 Patents, as well as the ’839 Application under 28 U.S.C. § 1498(a).
8/10/17 Am. Compl. 87-92.
On August 24, 2017, Plaintiff sent an email to the Department of Justice (the “DOT’)
stating:
As you know my strategy was to continue submitting claims of “takings”
and “infringement” for as long as the Government continued to prolong this case.
(Larry Golden v. The United States: Case # 13-307 C). With that said, of course
you know the claims ha[ve] moved from twelve (12) claims of “takings” and
“infringement” that began in the year 2013, to seventy-two (72) claims of “takings”
and “infringement” as of this year 2017.

13

35

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 14 of 39

The Judge has ordered a final complaint and a final claim chart that was due
on August 15. 2017. Because of the Judge order I can no longer continue my
strategy of introducing new “takings” and “infringement” claims or new patents
and patent claims.
Therefore, I have changed my strategy. My new strategy is to file a
complaint(s) in Federal District Court against Apple, Samsung, LG, Panasonic, and
Motorola for Patent infringement on March 1, 2018. The strategy here is to force
Apple, Samsung, and LG to decide between one or two choices: (1) In an effort to
avoid any responsibility for infringement or liability of paying hundreds of billions
of dollars in damages, the companies cho[o]se to throw the Government under the
bus by presenting evidence that they were under contract to develop and
manufacture devices that infringes my communication / monitoring device. If they
cho[o]se this option it makes them a witness for me in my current case (Larry
Golden v. The United States; Case # 13-307 C). (2) Deny the allegations of
infringement. In. this case I will present evidence to support the fact that the
companies were under contract with the Government to develop and manufacture
devices that infringe[] my communication / monitoring device, but that the
companies decided to continue to develop and manufacture my communication /
monitoring device beyond the specifications agreed upon with the Government,
even after I notified the companies in 2010 to stop their manufacturing. If they
chos[o]e this option it opens the companies up to willful infringement and the
possibility of a temporary injunction to stop the manufacturing and development of
my communication / monitoring device. If you were Apple, Samsung, and LG
which option would you cho[o]se.
10/20/17 Gov’t Mot. Ex. 1.
On October 20, 2017, the Government filed a Motion For Partial Dismissal (“10/20/17
Gov’t Mot.”), pursuant to RCFC 12(b)(1) and 12(b)(6). ECF No. 123.
OnNovember 17,2017, Plaintiff filed aResponse And Motion For Leave To File A Motion
For Summary Judgment (“11/17/17 PI. Resp.”). EOF No. 124.
On December 18, 2017, the Government filed a Reply And Opposition To Plaintiffs
Motion For Leave To File A Motion For Summary Judgment (“12/18/17 Gov’t Reply”). ECF No.
125.
On January 8,2018, Plaintiff filed a Reply (“1/8/18 PI. Reply”). ECF. No. 126.
III.

STANDARD OF REVIEW.
A.

Jurisdiction.

As a threshold matter, the court must consider jurisdiction before reaching the substantive
merits of a case. See Gonzalez v. Thaler, 565 U.S. 134,141 (2012) (“When a requirement goes to
subject-matter jurisdiction, courts are obligated to consider sua sponte issues that the parties have
14

36

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 15 of 39

disclaimed or have not presented.”)- The burden of establishing jurisdiction “lies with the party
seeking to invoke the court’s jurisdiction.” Cedars-Sinai Med. Ctr. v. Watkins, 11 F.3d 1573,1583
(Fed. Cir. 1993).
B.

Standard Of Review For A Motion To Dismiss Under RCFC 12(b)(1).

A challenge to the United States Court of Federal Claims’ “general power to adjudicate
in specific areas of substantive law ... is properly raised by a [Rule] 12(b)(1) motion.”
Palmer v. United States, 168 F.3d 1310, 1313 (Fed. Cir. 1999); see also RCFC 12Cb)(l) (allowing
a party to assert, by motion, “lack of subject-matter jurisdiction”).
If a motion to dismiss for lack of subject-matter jurisdiction “challenges the court’s subject
matter jurisdiction based on the sufficiency of the pleading’s allegations ... then those allegations
are taken as true and construed in a light most favorable to the complainant.” Cedars-Sinai Med
Ctr., 11 F.3d at 1583. But, if such a motion “denies or controverts the pleader’s allegations of
jurisdiction, ... the movant is deemed to be challenging the factual basis for the court’s subject
matter jurisdiction.” Id. “In such a case, the allegations in the complaint are not controlling and
only uncontroverted factual allegations are accepted as true for purposes of the motion. All other
facts underlying the controverted jurisdictional allegations are in dispute and are subject to fact­
finding by the . .. court.” Id. at 1583-84 (internal citations omitted); see also Moyer, 190 F.3d at
1318 (“Fact-finding is proper when considering a motion to dismiss where the jurisdictional facts
in the complaint... are challenged.”). The court “may weigh relevant evidence when it considers
a motion to dismiss that challenges the truth of jurisdictional facts alleged in a complaint.”
Ferreiro, 350 F.3d at 1324; see also Reynolds v. Army & Air Force Exch. Serv., 846 F.2d 746, 747
(Fed. Cir. 1988) (“If a motion to dismiss for lack of subject matter jurisdiction .. . challenges the
truth of the jurisdictional facts alleged in the complaint, the [trial] court may consider relevant
evidence in order to resolve the factual dispute.”); James Wm, Moore, MOORE’S Federal
Practice § 12.30[4] (3d ed. 2012) (“[W]hen a court reviews a complaint under a factual attack,
the allegations have no presumptive truthfulness, and the court . . . has discretion to allow
affidavits, documents, and even a limited evidentiary hearing to resolve disputed jurisdictional
facts.”).
If the court determines that it does not have subject-matter jurisdiction, the court must
dismiss the complaint. See RCFC 12(h)(3) (“If the court determines at any time that it lacks
subject-matter jurisdiction, the court must dismiss the action.”).
C.

Standard Of Review For A Motion To Dismiss Under RCFC 12(b)(6).

A claim is subject to dismissal under RCFC 12(b)(6), if it does not provide a basis for the
court to grant relief. See Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555-56 (2007) (“[A wellpleaded complaint] requires more than labels and conclusions, and a formulaic recitation of the
elements of a cause of action will not do. Factual allegations must be enough to raise a right of
relief above the speculative level, on the assumption that all the allegations in the complaint are
true (even if doubtful in fact).” (internal citations omitted)); see also Lindsay v. United States, 295
F.3d 1252,1257 (Fed. Cir. 2002) (“A motion to dismiss ... for failure to state a claim upon which

15

37

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 16 of 39

relief can be granted is appropriate when the facts asserted by the claimant do not entitle him to a
legal remedy.”).
A complaint must “contain sufficient factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.”’ Ashcroft v. Iqbal, 556 U.S. 662,678 (2009) (quoting Twombly,
550 U.S. at 570). “A claim has facial plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that the defendant is liable for the misconduct
alleged.” Id. The allegations in a complaint also must establish that there is “more than a sheer
possibility that a defendant has acted unlawfully.” Id. “Threadbare recitals of the elements of a
cause of action, supported by mere conclusory statements, do not suffice.” Id; see also Sioux
Honey Ass’n v. Hartford Fire Ins. Co., 672 F.3d 1041, 1062 (Fed. Cir. 2012) (holding that a
complaint “require[s] more than labels and conclusions”). To determine whether a complaint
states a plausible claim for relief, the corut must engage in a context-specific analysis and “draw
on its judicial experience and common sense.” Iqbal, 556 U.S. at 679. Therefore, the court is “not
bound to accept as true a legal conclusion couched as a factual allegation.” Twombly, 550 U.S. at
555.
D.

Standard Of Review For Pro Se Litigants.

Pro se plaintiffs’ pleadings are held to a less stringent standard than those of litigants
represented by counsel. See Haines v. Kerner, 404 U.S. 519, 520 (1972) (holding that pro se
complaints, “however inartfully pleaded,” are held to “less stringent standards than formal
pleadings drafted by lawyers”). The United States Court of Federal Claims traditionally has
examined the record “to see if [a pro se] plaintiff has a cause of action somewhere displayed.”
Ruderer v. United States, 412 F.2d 1285, 1292 (Ct. Cl. 1969). Although the court may excuse
ambiguities in a pro se plaintiff’s complaint, the court “does not excuse [a complaint’s] failures.”
Henke v. United States, 60 F.3d 795,799 (Fed. Cir. 1995). (“The fact that [the plaintiff] acted pro
se in the drafting of his complaint may explain its ambiguities, but it does not excuse its failures,
if such there be.”).
' A pro se plaintiff is not excused from satisfying the burden of proof as to jurisdiction, by
a preponderance of the evidence. See McNutt v. Gen. Motors Acceptance Corp., 298 U.S. 178,
189 (1936) (“[The plaintiff] must allege in his pleading the facts essential to show jurisdiction.”);
see also Reynolds, 846 F.2d at 748 ([Thepro se plaintiff] bears the burden of establishing subject
matter jurisdiction by a preponderance of the evidence.”). A pro se plaintiff cannot rely solely on
conclusory allegations in the complaint, but must allege “competent proof’ to establish
jurisdiction. McNutt, 298 U.S. at 189; see also Reynolds, 846 F.2d at 748 (“[I]t was incumbent
upon [the pro se plaintiff] to come forward with evidence establishing the court’s jurisdiction.”);
Zulueta v. United States, 553 F. App’x 983, 985 (Fed. Cir. 2014) (“[T]he leniency afforded to a
[pro se] litigant with respect to mere formalities does not relieve the burden to meet jurisdictional
requirements.” (quotation marks omitted)).

16

38

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 17 of 39

IV.

DISCUSSION.
A.

Whether Certain Patent Infringement Allegations13 In The August 10, 2017
Fifth Amended Complaint Should Be Dismissed Under RCFC 12(b)(1) And
12(b)(6).
1.

Patent Infringement Allegations In The August 10, 2017 Fifth
Amended Complaint.

The August 10, 2017 Fifth Amended Complaint alleges that the Government:
(1) violated the Fifth Amendment of the United States Constitution by taking for public use the
’497, ’033, ’752, ’761, ’280, ’891, ’990, ’189, and ’439 Patents, without just compensation; and
(2) is liable for infringement of the ’497, ’033, ’752, ’761, ’280, ’891, ’990, ’189, and ’439 Patents,
as well as the ’839 Application under 28 U.S.C. § 1498(a). 8/10/17 Am. Compl.
87-92. The
Fifth Amended Complaint alleges that the court has jurisdiction over the Takings Clause claims
under 28 U.S.C. § 1491(a)and overthe patent infringement allegations under 28U.S.C. § 1498(a).
8/10/17 Am. Compl. 3-20.14
The August 10, 2017 Fifth Amended Complaint identifies numerous “devices” and
“programs”15 hat allegedly were developed or procured, as a result of “contracts, agreements,

13 Hereinafter, he court refers to he patent infringement claims alleged in the August 10,
2017 Fifth Amended Complaint as “patent infringement allegations” to avoid confusion wih he
patent claims that are allegedly infringed.
14 In accordance with the court’s March 31, 2014 Order, he court will not rule on he
Government’s October 20, 2017 Motion For Partial Dismissal regarding Plaintiffs Fifth
Amendment Takings Clause claims. ECF No. 38 (stating hat “Plaintiffs takings claim[s] should
be stayed” and directing he parties to “proceed wih Plaintiffs claims only as they relate to the
alleged patent infringement by he United States”). Therefore, hose portions of the Government’s
October 20, 2017 Motion For Partial Dismissal relating to Plaintiffs Fifth Amendment Takings
Clause claims are denied, wihout prejudice.
15 The “devices” and “programs” identified include: Alluviam HazMasterG3; Apple
HomeKit; Apple iPhone 5, 5c, 5s, 6, and 6 Plus (“Biodetector”); Apple iPads; Apple Watch;
August Connect; “ATHENA;” August Smart Lock; Biomeme two3; Boeing MH-6 Little Bird;
“Cell All;” “‘COINS’ Nano-Embedded Sensors;” DreamHammer Ballista; “EAGER;” Eureka
High-Power Electromagnetic System; FePhone; FeverPhone; FLIR identiFINDER R300; Ford
MyFord Mobile App; GammaPix; Kromek D3S-ID; Rromek D3S-NET; iControl mLOCK;
“INSPIRE;” “Lab-on-a-Drone;” LG Electronics G5 Smartphone; LG Electronics V10
Smartphone; Lockheed Martin K-MAX; MultiRAE Pro; Navy/Marine Corps Intranet; Northrop
Grumman X-47B; NutriPhone; Oshkosk TerraMax; Panasonic Toughbook 31 Laptop; PositivelD
“Firefly DX;” SiN-VAPOR; Samsung Gear s2; Samsung Galaxy s6 (“BioPhone,” “Biotouch
System,” “Nett Warrior”); Samsung SmartThings Hub; “Smartphone-Based Rapid Diagnostic
Tests;” “VOCket System;” Volkswagen Car-Net e-Remote; and Yale Assure Lock.
17

39

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 18 of 39

grants, and procurements” between various federal entities16 and private parties.17 8/10/17 Am.
Compl. fflf 91-406. These “devices” and “programs,” independently or in combination, allegedly
infringe claims of the ’497, ’033, ’752, ’761, ’891, ’990, ’280, ’189, and ’439 Patents, as well as
the ’839 Application. 8/10/17 Am. Compl. | 91. For example, regarding the LG Electronics G5
Smartphone, the Fifth Amended Complaint alleges the following:
Upon information and belief, the United States has infringed, and continues
to infringe, at least claim 22 of the ’439 Patent, and claims 18,118,12, 28,25, 30,
22, and 20 of the ’990 Patent as a current manufacturer, consumer, and/or user of
the "LG Electronics G5 Smartphone”. Manufacture for the Government; 2008:
The “Cell-All” initiative. The [DHS-S&T] .. ., Cell-All aims “to equip your cell
phone with a sensor capable of detecting deadly chemicals”, says Stephen Dennis,
Cell-All’s program manager. [DHS-S&T] pursued cooperative agreements with
four cell phone manufacturers: Qualcomm, LG, Apple, and Samsung. Used by the
Government; 2016: Both the LG G5 and Y10 smartphones can be used by the
[DOD]. The LG smartphones received a security certification from the U.S.
Defense Information Systems Agency [(the “DISA”)], as well as a certification by
the National Information Assurance Partnership [(the “NIAP”)]. Sensors will
integrate with 261 million cell phones now used in the U.S. [and ijeverage billions
of dollars spent each year in sensor, carrier network and cell phone development.
Multiple sensors network for chemical profiling; Cell-All aims “to equip your cell
phone with a sensor capable of detecting deadly chemicals”, says Stephen Dennis,
16 The federal entities identified include: the Department of the Army; the Department of
the Air Force; the Department of Defense (“DOD”); the Department of Energy; the DHS; the
Department of Homeland Security Science and Technology Directorate (“DHS-S&T”); the DOJ;
the Department of the Navy; the Air Force Research Laboratory; the Army CommunicationsElectronics Research, Development and Engineering Center; the Army Edgewood Chemical
Biological Center; the Army Research Laboratory; the Chemical Biological Radiological Nuclear
Information Resource Center; the Defense Advanced Research Projects Agency; the Defense
Threat Reduction Agency; the Domestic Nuclear Detection Office (“DNDO”); the Environmental
Protection Agency; the Federal Emergency Management Agency; the General Services
Administration; the Homeland Security Advanced Research Projects Agency; the Integrated
Chemical Biological Radiological Nuclear and Explosive Program; file Joint Acquisition Chemical
Biological Radiological Nuclear Knowledge System; the Joint Program Executive Office for
Chemical and Biological Defense; the National Aeronautics and Space Administration; the Naval
Air Systems Command; the Naval Research Laboratory; the NIH; the NSF; the Oak Ridge
National Laboratory; and the Office of Naval Research.
17 The “private parties” identified include: Alluviam LLC; Apple Inc.; Biomeme Inc,;
Boeing Company; California Institute of Technology (“Caltech”); Cornell; Eureka Aerospace;
“Ford;” Holomic LLC; Kromek Group pic; LG Electronics; Lockheed Martin Corporation; MIT;
Motorola, Inc.; Northrop Grumman Corporation; Oshkosh Defense LLC; Panasonic Corporation;
Passport Systems, Inc.; PositivelD Corporation; Qualcomm Inc.; Raytheon Ktech; Samsung;
Stanford University (“Stanford”); UC Berkeley; UCLA; the University of California, Merced
(“UC Merced”); UH; UIUC; and “Volkswagen.”
18

40

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 19 of 39

Cell-All’s program manager. Multiple sensor units per phone are possible. Stephen
Dennis envisions a chemical sensor in every cell phone in every pocket, purse, or
belt holster.
As a result of contracts, agreements, and procurements with various
Government Agencies (fl 49-78), the [DHS], the [DOD], and LG Electronics for
the manufacture, development, commercialization, and/or use of the
communication/ monitoring device “LG Electronics G5 Smartphone”, the United
States has used, authorized the use, and manufactured, without license or legal
right, Plaintiff’s inventions described in and covered by the ’439, and ’990 Patents.
8/10/17 Am. Compl.
2.

93-97 (bold in original).
The Government’s Argument.

The Government argues that the patent infringement allegations in ^ 91-406 of the August
10, 2017 Fifth Amended Complaint reflect a “deliberate strategy to multiply the proceedings for
as long as the [Government.. . resist[s] settlement on Plaintiff’s terms.” 10/20/17 Gov’t Mot. at
2. According to 28 U.S.C. § 1927,18 parties are prohibited from “multiply[ing] the proceedings in
any case unreasonably and vexatiously.” 10/20/17 Gov’t Mot. at 3. Although some leniency
should be afforded a pro se plaintiff, such a plaintiff is not exempt from complying with the court’s
rules. 10/20/17 Gov’t Mot. at 3. RCFC 41(b) authorizes the court to dismiss a claim for failure to
comply with the court’s rules or a court order. 10/20/17 Gov’t Mot. at 3. Accordingly, the patent
infringement allegations in the Fifth Amended Complaint should be dismissed under RCFC 41(b).
10/20/17 Gov’t Mot. at 2-3.
In the alternative, the Government contends that 28 U.S.C. § 1498(a) “provides patent
owners with a remedy of damages” in the United States Court of Federal Claims, but only “when
the claimed invention is ‘used or manufactured by . . . the United States’ without a license.”
10/20/17 Gov’t Mot. at 7 (quoting 28 U.S.C. § 1498(a)). A private party’s “use or manufacture”
of a claimed invention will be considered a “use or manufacture for the Government” if the use or
manufacture is: (1) for the benefit of the Government; and (2) with the Government’s
“authorization or consent.” 10/20/17 Gov’t Mot. at 7 (citing Carrier Corp. v. United States, 534
F.2d 244, 249 (Ct. Cl. 1976)).

18 28 U.S.C. § 1927 provides that
[a]ny attorney or other person admitted to conduct cases in any court of the United
States or any Territory thereof who so multiplies the proceedings in any case
unreasonably and vexatiously may be required by the court to satisfy personally the
excess costs, expenses, and attorneys’ fees reasonably incurred because of such
conduct.
28 U.S.C. § 1927.
19

41

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 20 of 39

Regarding the “first requirement,” private conduct incidentally benefitting the Government
does not constitute use “for the benefit of the Government.” 10/20/17 Gov’t Mot. at 7 (citing
Sheridan v. United States, 120 Fed. Cl. 127, 131 (Fed. Cl. 2015) (“Where benefits to the
Government are merely an incidental effect of private conduct, they do not constitute ‘use or
manufacture for the Government’ within the meaning of § 1498.”)). As to the “second
requirement,” authorization or consent may be express or, in limited circumstances, implied.
10/20/17 Gov’t Mot. at 8. For example, the Government “can provide express authorization and
consent... by including [an] operative clause in a contract, or providing other formal, written
authorization.” 10/20/17 Gov’t Mot. at 8. In addition, implied authorization may be presumed
where there are “contracting officer instructions, [or] . . . specifications^] or drawings which
impliedly sanction and necessitate infringement.” 10/20/17 Gov’t Mot. at 8 (quoting Hughes
Aircraft Co. v. United States, 534 F.2d 889, 901 (Ct. Cl. 1976)). Authorization and consent,
however, “may be limited by clauses in a contract.” 10/20/17 Gov’t Mot. at 8 (citing Carrier
Corp., 534 F.2d at 249 (“Since Section 1498(a) expressly provides that any use of a patented
invention for the Government must be authorized or consented to, it is plain that the Government
can limit... authorization and consent[.]”)).
The court does not have jurisdiction under 28 U.S.C. § 1498(a) to adjudicate patent
infringement allegations concerning NSF and NIH grants and cooperative agreements, because
any benefit to the Government, at best, would be incidental. 10/20/17 Gov’t Mot. at 10-16. In
addition, none of the grants or cooperative agreements evidence any “express or implied
authorization and consent by the [Government.” 10/20/17 Gov’t Mot. at 11, 16. In fact, the
“expressly incorporated NSF Research Terms & Conditions” explicitly exempt the NSF from
liability “for unauthorized use of patented .. . materials.” 10/20/17 Gov’t Mot. at 13. Similarly,
the NIH grants include a reference to 45 C.F.R. Part 75, that “disallows [an] awardee from
submitting ‘[c]osts of legal, accounting, and consultant services, and related costs, incurred
in connection with patent infringement litigation [. . .] unless otherwise provided for in
the [. . .] award.’” 10/20/17 Gov’t Mot. at 14 (quoting 45 C.F.R. § 75.435(h)). Likewise, the
award of NSF and NIH grants does not evidence implied authorization, because the Government
does not direct or exercise control over the activities of awardees. 10/20/17 Gov’t Mot. at 13.
Although the cooperative agreements may involve a measure of Government involvement, they
do not contain any text evidencing Government “authorization [or] consent to infringe another’s
patent.” 10/20/17 Gov’t Mot. at 15-16.
The Government also argues that the Fifth Amended Complaint’s “allegations relating
generally to smartphones and other consumer devices should be dismissed” under RCFC 12(b)(1)
and 12(b)(6), because they fail to allege “actual ‘use’ by the [Government of the various
combinations of consumer devices, nor would the [Gjovemment’s use be plausible.” 10/20/17
Gov’t Mot. at 16-17. In addition, the Fifth Amended Complaint “fails to allege that any of these
various consumer devices were made for the benefit of the [G]ovemment.” 10/20/17 Gov’t Mot.
at 17. The companies referenced in the Fifth Amended Complaint “manufacture, develop, and
commercialize their devices in their own economic self-interest.” 10/20/17 Gov’t Mot. at 17.
Moreover, any benefit that the Government might receive does “not constitute use or manufacture
for the Government within the meaning of § 1498.” 10/20/17 Gov’t Mot. at 17-18 (quoting
Sheridan, 120 Fed. Cl. at 131 (determining that the alleged benefit to the Government of economic
“stimulus, jobs, and revenue” was “merely an incidental effect of private conduct, [that does] not
20

42

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 21 of 39

constitute ‘use or manufacture for the Government’ within the meaning of § 1498”)). In sum, the
Fifth Amended Complaint contains no allegations that the Government actually used or authorized
the use of any of the accused devices at issue. 10/20/17 Gov’t Mot. at 20. Instead, the Fifth
Amended Complaint alleges only that the devices “can be used by the [Government].” 10/20/17
Gov’t Mot. at 20 (underline in original).
Other allegations of the Fifth Amended Complaint also should be dismissed, under RCFC
12(b)(1) and 12(b)(6). 10/20/17 Gov’t Mot. at 21. First, allegations of infringement “based on a
number of devices allegedly developed by third party Passport Systems, Inc. in response to a Broad
Agency Announcement (“BAA”)” should be dismissed, because “a BAA is not a contract.”
10/20/17 Gov’t Mot. at 21 (citing 8/10/17 Am. Compl. ^ 161-68). A BAA is “a general
announcement of an agency’s research interest” and “cannot be said to provide authorization and
consent.” 10/20/17 Gov’t Mot. at 21-22 (quoting 48 C.F.R. § 2.101(b)). Second, patent
infringement allegations concerning the ’761, ’280, and ’189 Patents should be dismissed, because
the Fifth Amended Complaint alleges no infringement of specific claims of these three patents.
10/20/17 Gov’t Mot. at 22-23. Third, as to the ’033 Patent, “there is no subject matter jurisdiction
under Section 1498, because this patent was surrendered when it was reissued[.]” 10/20/17 Gov’t
Mot. at 22 (citing 35 U.S.C. § 251(a) (“[T]he Director shall, on the surrender of such patent and
the payment of the fee required by law, reissue the patent for the invention disclosed in the original
patent[.]”)). Fourth, as to the ’839 Application, there can be no infringement of unissued claims.
10/20/17 Gov’t Mot. at 23 (citing Stroughter v. United States, 89 Fed. Cl. 755,762 (Fed. Cl. 2009)
(“Because plaintiffs’ claims allege the infringement of unissued patents, the court's jurisdiction
under § 1498 is lacking.”)). In addition, the allegations of patent infringement of the ’439 Patent
are based on “activities” that occurred prior to issuance of the ’439 Patent and must be dismissed
as a matter of law. 10/20/17 Gov’t Mot. at 23.
3.

Plaintiff’s Response And Motion For Leave To File A Motion For
Summary Judgment.

Plaintiff responds that “[ajfter ten (10) months of jurisdictional discovery, the Government
has fail[ed] to introduce any new evidence that supports its ‘Motion to Dismiss Certain NSF and
NIH Devices[.]’” 11/17/17 PI. Resp. at 14. The Government’s arguments are the same as those
presented in the June 24, 2016 Motion To Dismiss. 11/17/17 PI. Resp. at 14. In sum, “[t]he
Government has not shown any disagreement, or has [not] tried to overcome [the court’s
November 30, 2016] ‘Memorandum Opinion and Order Denying Government’s Motion To
Dismiss.’” 11/17/17 PI. Resp. at 14. Therefore, “Plaintiff is standing on the [c]ourt’s resolution
and decision to dismiss.” 11/17/17 PI. Resp. at 14.
In the alternative, Plaintiff “seeks leave to file a motion for summary judgment,” pursuant
to RCFC 56(e) and 56(f). 11/17/17 PI. Resp. at 1. Plaintiff contends that the Government is in
“contempt of court” for “willfully disobeyfing]” the court’s order to file a Motion To Dismiss
“based on jurisdiction that was due on October 2, 2017.” 11/17/17 PI. Resp. at 2. Plaintiff “did
not object” to the Government’s September 15,2017 request “for an extension of time to respond
to Plaintiff’s [Fifth] Amended Complaint,” because “it was an extension of time ... to file an
answer.” 11/17/17 PI. Resp. at 3 (citing ECF No. 122 (Sept. 19, 2017 Order granting the
Government “an additional 18 days to respond to Plaintiffs [Fifth Amended] Complaint”)).
Instead of filing an answer, the “Government has wasted 16 months of taxpayers’ dollars
21

43

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 22 of 39

questioning this [cjourt’s jurisdiction[.]” 11/17/17 PI. Resp. at 3. The Government is also in
“contempt of court” for “willfully disobey[ing]” the court’s order to “file an answer to Plaintiff’s
Complaint.” 11/17/17 PI. Resp. at 4—5 (citing ECF No. 122). In addition, the Government is in
“contempt of court” for “willfully disobey[ing]” the court’s order “NOT to file any additional
[mjotions before a decision is made on jurisdiction.” 11/17/17 PI. Resp. at 5 (capitalization and
underline in original). But, “[wjithin the Government’s latest ‘Motion for Partial Dismissal. . . ’
filed on 10/20/2017, the Government is asking the [c] ourt to rule on pleadings” that are not related
to jurisdiction. 11/17/17 PI. Resp. at 6. Plaintiff has “[sjuffered [prejudice,” because of the
Government’s “[wjillful [cjonduct of [djelaying.” 11/17/17 PI. Resp. at 8.
4.

The Government’s Reply And Opposition To Plaintiffs Motion For
Leave To File A Motion For Summary Judgment.

The Government replies that “Plaintiff offers no rebuttal to the [Fifth] Amended
Complaint’s failure to plead any facts supporting the jurisdictional prerequisite that the newly
accused consumer devices ... were manufactured for the [Government.” 12/18/17 Gov’t Reply
at 5. “Nor does Plaintiff address the [Fifth] Amended Complaint’s failure to allege use by the
[G]ovemment of accused devicesf.]” 12/18/17 Gov’t Reply at 5. In fact, “Plaintiff’s attempt to
drastically expand this case by introducing scores of consumer devices actually reinforces the
[Government’s arguments for dismissal. Indeed, Plaintiff’s bald [allegation] that ‘[t]he
Government cannot use a smartphone of any kind without infringing Plaintiff’s claimed invention’
demonstrates the implausibility of Plaintiff’s allegations of infringement.” 12/18/17 Gov’t Reply
at 5 (underline in original). Plaintiff also "makes no showing that this [c]ourt has jurisdiction over
the NSF and NIH awards[,] based on either express or implied authorization and consent.”
12/18/17 Gov’t Reply at 6. Although, “Plaintiff faults the [G]ovemment for allegedly ‘fail[ing] to
introduce new evidence that supports’ its argument that this [c]ourt lacks jurisdiction over the NSF
and NIH awards .. ., in doing so, Plaintiff improperly reverses the burden of proving jurisdiction,
which remains with Plaintiff.” 12/18/17 Gov’t Reply at 6 (citing Sheridan, 120 Fed. Cl. at 129
(“Subject-matter jurisdiction must be established by the plaintiff at the outset of any case before
the Court proceeds to the merits of the action.”)). Finally, “Plaintiff’s additional evidence ... and
claim charts . . . should be excluded,” because “[t]hese exhibits belatedly accuse additional
products ... in contravention of this [c]ourt’s May 25, 2017 Scheduling Order, which permitted
Plaintiff ‘to amend his complaint and claim chart one final time, prior to the court’s ruling on
jurisdiction,’ in which the complaint ‘will allege all claims asserted against the Government.’”
12/18/17 Gov’t Reply at 7 (quoting ECF No. 116).
In addition, “Plaintiffs demand for ‘summary judgment’ is improper,” as it violates the
court’s May 25,2017 Scheduling Order that “plainly and repeatedly prohibited Plaintiff from filing
additional motions without first obtaining leave of court.” 12/18/17 Gov’t Reply at 3 (citing ECF
No. 116 (“Plaintiff is ordered not to file any other motions or papers without leave of the court.”)).
“Styling the paper as one ‘seeking] leave to file’ does not undo Plaintiffs overreach.” 12/18/17
Gov’t Reply at 3. In addition, “Plaintiff misrepresents the [Government’s correspondence with
Plaintiff and the [cjourt to feign surprise by the [G]ovemment’s motion to dismissf.]” 12/18/17
Gov’t Reply at 3. Specifically, “[o]n September 15, [2017] the [G]ovemment wrote to the [c]ourt,
copying Plaintiff, that the [Government intended to seek an extension ‘to file its Motion to
Dismiss.’” 12/18/17 Gov’t Reply at 4 (underline in original). Therefore, because “Plaintiff’s . ..
22

44

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 23 of 39

motion is premised on this misrepresentation . .. , it should be denied.” 12/18/17 Gov’t Reply at
4. In the alternative, Plaintiff’s request for summary judgment is “premature because the case is
in the pleadings stage, merits discovery has not yet opened, and the [cjourt has not yet construed
the claim terms.” 12/18/17 Gov’t Reply at 4 (citing RCFC 56(d) (“If a nonmovant shows by
affidavit or declaration that, for specified reasons, it cannot present facts essential to justify its
opposition, the court may ... defer considering the motion or deny it[.]”)).
5.

Plaintiffs Reply.

Plaintiffs reply did not address the Government’s arguments concerning the court’s
jurisdiction to adjudicate the patent infringement allegations of the August 10, 2017 Fifth
Amended Complaint.
6.

The Court’s Resolution.
a.

Governing Precedent.

The United States Court of Federal Claims has jurisdiction to adjudicate patent
infringement allegations against the Government alleging that “an invention described in and
covered by a patent of the United States is used or manufactured by or for the United States without
license of the owner thereof or lawful right to use or manufacture the same.” 28 U.S.C. § 1498(a).
In this context, “the use or manufacture of [a patented] invention ... by a contractor, a
subcontractor, or any person, firm, or corporation for the Government and with the authorization
or consent of the Government, shall be construed as use or manufacture for the United States.” Id.
Accordingly, the United States Court of Federal Claims has jurisdiction to adjudicate patent
infringement allegations against the Government “arising upon either . . . of. . . two grounds:
(1) unlicensed use or manufacture of a patented invention by the [Government] directly; and/or
(2) unlicensed use or manufacture of a patented invention for the [Government] and with [the
Government’s] authorization or consent.” Hughes Aircraft Co., 534 F.2d at 897. As to the second
basis for jurisdiction, 28 U.S.C. § 1498(a) “sets forth a two-part test for determining whether th[e]
court has jurisdiction . . . over a particular [allegation].” Id. “Under this test, a finding of
jurisdiction is conditioned upon a showing that[:] (1) the accused use or manufacture was
undertaken for the Government, i.e., for the Government’s benefit; and (2) the Government gave
its authorization or consent for the accused use or manufacture.” Id. at 897-98.
Regarding the first element, infringing activity has been held to be “for the Government”
under 28 U.S.C. § 1498(a), if it is “for the benefit of the Government.” Advanced Software Design
Corp. v. Fed. Reserve Bank ofSt. Louis, 583 F.3d 1371, 1378 (Fed. Cir. 2009). “Incidental benefit
to the [Government is insufficient^]” IRIS Corp. v. Japan Airlines Corp., 169 F.3d 1359, 1362
(Fed. Cir. 2014) (quotation marks and alterations omitted) (holding that the Government benefited
from the examination of passports in “accord[ance with] federal law,” because it “improves the
detection of fraudulent passports and reduces demands on [G]ovemment resources”); see also
Advanced Software Design Corp., 583 F.3d at 1378-79 (holding that requiring Federal Reserve
Banks to use a certain “seal encoding” system to identify fraudulent bank checks, benefitted the
Government by averting fraud and saving resources through the use of more efficient technology);
Hughes Aircraft Co., 534 F.2d at 897-99 (holding that the Government’s participation in the

23

45

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 24 of 39

Skynet II satellite program was “for the Government,” because the program was vital to the
military defense and security of the United States).
Regarding the second element, “authorization or consent of the Government” may be
express or implied. See TVI Energy Corp. v. Blane, 806 F.2d 1057, 1060 (Fed. Cir. 1986)
(“Authorization or consent by the Government can be expressed... [or i]n proper circumstances,
Government authorization can be implied.”); see also Hughes Aircraft Co., 534 F.2d at 901
(holding that implied authorization may be presumed when the Government provides
“instructions, . . . specifications [,] or drawings which impliedly sanction and necessitate
infringement”); IRIS Corp., 769 F.3d at 1362 (holding that “the [Government... clearly provided
its authorization or consent[,] because [the contractor] . . . [could ]not comply with its legal
obligations without engaging in the allegedly infringing activities”); Larson v. United States, 26
Cl. Ct. 365, 370 (Cl. Ct. 1992) (holding that implied authorization or consent “may be found under
the following conditions: (1) the [G]ovemment expressly contracted for work to meet certain
specifications; (2) the specifications cannot be met without infringing on a patent; and (3) the
[Government had some knowledge of the infringement”). In addition, the Government “can limit
its authorization and consent” by “inclusion... of a standard clause [that] limits the Government’s
authorization and consent[.]” Carrier Corp., 534 F.2d at 247-49 (“Since Section 1498(a)
expressly provides that any use of a patented invention for the Government must be authorized or
consented to, it is plain that the Government can limit... authorization and consent[.]”).
b.

Patent Infringement Allegations Concerning National Science
Foundation Grants And Cooperative Agreements Must Be
Dismissed Under RCFC 12(b)(1).
i.

Regarding National Science Foundation Grants.

The Government argues that patent infringement allegations19 concerning the nine NSF
grants20 should be dismissed under RCFC 12(b)(1), because: (1) in general, grants “by their
nature .. . carry out an attenuated public purpose .. . instead of acquiring property or services for
the direct benefit or use of the [Government;” and (2) the NSF grants “are entirely devoid of
express or implied authorization and consent by the [G]ovemment.” 10/20/17 Gov’t Mot. at 11
(underline in original).

19 The paragraphs in the Fifth Amended Complaint that include patent infringement
allegations concerning the NSF grants are: *|fl[ 184-85, 199-200, 235-36, 260-61, 265-66,
270-71, 275-76, 280-81, 285-86, 290-91, 295-96, 300-01, 305-06, and 350-51. These
paragraphs are highlighted in yellow in the attached Court Exhibit B.
20 The nine NSF grants are: Grant No. CCF-1029585 (10/20/17 Gov’t Mot. Ex. 6); Grant
No. CBET-1264377 (10/20/17 Gov’tMot. Ex. 7); Grant No. CBET-1447893 (10/20/17 Gov’t Mot.
Ex. 8); Grant No. CBET-1343058 (10/20/17 Gov’t Mot. Ex. 9); Grant No. CBET-1444240
(10/20/17 Gov’tMot. Ex. 10); GrantNo. EFRI-1332275 (10/20/17 Gov’tMot. Ex. 11); Grant No.
HP-1450552 (10/20/17 Gov’tMot. Ex. 12); GrantNo. 1533983 (10/20/17 Gov’tMot. Ex. 13); and
GrantNo. 1534126 (10/20/17 Gov’tMot. Ex. 14).
24

46

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18

Page 25 of 39

The Fifth Amended Complaint alleges the following with respect to Grant No. CCF1029585:
Upon information and belief, the United States has infringed, and continues
to infringe, at least claim 13 of the *439 Patent, and claims 18, 118,12, 28,25, 20,
32, and 30 of the ’990 Patent as a current manufacturer, consumer, and/or user of
the Samsung Galaxy s6 “BioPhone”. The Samsung Galaxy s6 “Bio Phone”
smartphone can measure your heart and breathing rates, even if you’re not directly
touching it. Researchers at MIT are working on a project called BioPhone that
derives biological signals from your smartphone’s accelerometer, which they say
can capture the small movements of your body that result from the beating of your
heart and rising and falling of your chest. This information is useful to base medical
diagnoses in real-life conditions and to help track chronic health conditions and
effects of therapeutic interventions. Research is based upon work supported by the
[NSF] (NSF CCF-1029585), Samsung, and the MIT Media Lab Consortium.
As a result of contracts1213 with the... [NSF], Samsung Group, and the MIT
Media Lab Consortium for the development and commercialization of the Samsung
Galaxy s6 “BioPhone”, and the “Samsung Electronic Communications Device”,
the United States has used, authorized the use, and manufactured, without license
or legal right, Plaintiff’s inventions described in and covered by the ’439, and ’990
Patents.
8/10/17 Am. Compl.

199-200.

The Fifth Amended Complaint contains patent infringement allegations arising from the
award of the other NSF grants, each of which repeats the text of 28 U.S.C. § 1498(a) in
conclusively alleging that, “[a]s a result of contracts with the [NSF]... the United States has used,
authorized the use, and manufactured . . . Plaintiff's inventions” as “a current manufacturer,
consumer, and/or user” of the “devices” or “programs” developed under the NSF grants. 8/10/17
Am. Compl.
184-85, 199-200, 235-36, 260-61, 265-66, 270-71, 275-76, 280-81, 285-86,
290-91, 295-96, 300-01, 305-06, 350-51. The Fifth Amended Complaint, however, does not
contain “the necessary supporting or primary facts sufficient” to support this conclusion. See
Hebern v. United States, 132 Ct. Cl. 344, 348^49 (Ct. Cl. 1955). Instead, the Fifth Amended
Complaint implies “direct” use or manufacture by the Government, based solely on the
NSF’s funding the development of allegedly infringing “devices” or “programs.” 8/10/17 Am.
Compl. 200 (‘Ms1 a result of contracts,” i.e., the NSF grants, “the United States has used,
authorized the use, and manufactured . . . Plaintiffs inventions[.]” (emphasis added)). Funding
alone, however, does not establish “direct” use or manufacture of “Plaintiff s inventions” by the
21 The Fifth Amended Complaint’s characterization of a NSF grant as a contract is
incorrect. Compare 31 U.S.C. § 6304 (“An executive agency shall use a grant agreement . . .
when . . . substantial involvement is not expected between the executive agency and the . . .
recipient when carrying out the activity contemplated in the agreement.”), with 31 U.S.C. § 6303
(describing the circumstances, inapplicable here, under which agencies are required to use
“procurement contracts”).
25

\

47

Case 1:13-CV-00307-SGB Document 130 Filed 03/29/18 Page 26 of 39

NSF, see Capitol Boulevard Partners v. United States, 31 Fed. Cl. 758, 761 (Fed. Cl. 1994)
(determining that, with regard to federal grants, “the [Government does not procure any property
or services for its direct use, rather it provides funding”); and the Fifth Amended Complaint’s
conclusory allegations are not sufficient to establish jurisdiction. See Norton v. Larney, 266 U.S.
511, 515 (1925) (“It is quite true that the jurisdiction of a federal court must affirmatively and
distinctly appear and cannot be helped by presumptions or by argumentative inferences drawn
from the pleadings.”).
The Fifth Amended Complaint also fails to allege that “the accused use or manufacture
was undertaken... for the Government’s benefit.” See Hughes Aircraft Co., 534 F.2d at 897. The
Fifth Amended Complaint contains no factual allegations establishing anything more than
“incidental benefit” to the NSF. See Advanced Software Design Corp., 583 F.3d at 1379 (holding
that “an interest in [a] program generally, or [where the Government] funds or reimburses all or
part of [a program’s] costs, is too remote to make the [Government the program’s beneficiary for
the purposes underlying § 1498” (quoting Larson, 26 Cl. Ct. at 369)); see also IRIS Corp., 769
F.3d at 1362 (“Incidental benefit to the [G]ovemment is insufficient” to satisfy the requirements
of 28 U.S.C. § 1498(a).).
Nor does the Fifth Amended Complaint allege that “the Government gave its authorization
or consent for the accused use or manufacture.” See Hughes Aircraft Co., 534 F.2d at 897. The
Fifth Amended Complaint does not contain any factual allegations establishing that the NSF, at
any time, authorized or consented to infringing use or manufacture. For example, the Fifth
Amended Complaint does not cite any portions of the NSF grants or communications between the
NSF and grant awardees “expressly” or “implicitly” authorizing infringing conduct. See Larson,
26 Cl. Ct. at 369-70 (“[Authorization or consent requires explicit acts or extrinsic evidence
sufficient to prove the [G]ovemment’s intention to accept liability for a specific act of
infringement.”). Nor does the Fifth Amended Complaint include any factual allegations that could
be construed as “express” or “implicit” authorization or consent by the NSF to infringe Plaintiff’s
patents. See Hughes Aircraft Co., 534 F.2d at 901 (holding that implied authorization may
be presumed when the Government provides “instructions, . . . specifications^] or drawings
which impliedly sanction and necessitate infringement”); see also IRIS Corp., 769 F.3d at 1362
(holding that “the [Government. . . clearly provided its authorization or consent[J because [the
contractor] . . . cannot comply with its legal obligations without engaging in the allegedly
infringing activities”). Instead, each of the NSF grants incorporated a standard clause advising
that the NSF “cannot assume any liability for . . . claims arising out of any work supported by
an award for unauthorized use of patented . . . materials” or, more generally, “with respect
to . . . property of. . . third parties.” 10/20/17 Gov’t Mot. Ex. 15. Therefore, awardees were
warned that the use of “property of. . . third parties,” including “patented . . . materials,” was
“unauthorized.” See Carrier Corp., 534 F.2d at 247-49 (holding that the Government “can
limit . . . authorization and consent” by “inclusion ... of a standard clause [that] limits the
Government’s authorization and consent”).
For these reasons, the court has determined that the patent infringement allegations
contained in fK 184-85, 199-200, 235-36, 260-61, 265-66, 270-71, 275-76, 280-81, 285-86,
290—91, 295—96, 300-01, 305—06, and 350-51 of the August 10, 2017 Fifth Amended Complaint

26

48

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 27 of 39

failed to satisfy Plaintiffs burden to establish jurisdiction under 28 U.S.C. § 1498(a). Accordingly,
these paragraphs of the Fifth Amended Complaint must be dismissed under RCFC 12(b)(1).
ii.

Regarding National Science Foundation Cooperative
Agreements.

The Government also argues that patent infringement allegations22 concerning the two NSF
cooperative agreements23 should be dismissed under RCFC 12(b)(1). 10/20/17 Gov’t Mot. at 15.
The Fifth Amended Complaint alleges the following with respect to the NSF cooperative
agreements:
Upon information and belief, the United States has infringed, and continues
to infringe, at least claim 13 of the ’439 Patent, and claims 18, 118, 12, 28,25,20,
32, and 30 of the ’990 Patent as a current manufacturer, consumer, and/or user of
the “COINS” Nano-Embedded Sensors for Smartphones: The Center of Integrated
Nanomechanical Systems (COINS) is a multidisciplinary nanoscale science and
engineering center (NSEC) funded by the [NSF] with its headquarters at
[UC Berkeley] and satellite campuses at Stanford, Caltech, and [UC Merced]. The
goal of COINS is to develop and integrate cutting-edge nanotechnologies into a
versatile platform with various ultra-sensitive, ultra-selective, self-powering,
mobile, wirelessly communicating detection applications; develop novel lowpower, low-cost, selective nanomaterials-enable sensing systems for real-time
detection of explosives, toxicants, and radiation and interface Nano-enable sensors
with smart phones, eventually becoming embedded in the device.
As a result of contractsp4] with the [NSF], the Center of Integrated
Nanomechanical Systems (COINS), [UC Berkeley], Stanford, Caltech,
[UC Merced], and Apple Inc. for the development and commercialization of the
“COINS” Nano-Embedded Sensors for Smartphones, and the “Apple Inc.’s
Electronic Communications Device”, the United States has used, authorized the

22 The paragraphs in the Fifth Amended Complaint that include patent infringement
allegations concerning the NSF cooperative agreements are: f^[ 194-95. These paragraphs are
highlighted in green in the attached Court Exhibit B.
23 The two NSF cooperative agreements are: Award No. 0425914 (10/20/17 Gov’t Mot.
Ex. 20) and Award No. 0832819 (10/20/17 Gov’t Mot. Ex. 21).
24 The Fifth Amended Complaint’s characterization of a NSF cooperative agreement as a
contract is incorrect. Compare 31 U.S.C. § 6305 (describing the circumstances under which
agencies are required to use a “cooperative agreement”), with 31 U.S.C. § 6303 (describing the
circumstances, inapplicable here, under which agencies are required to use “procurement
contracts”).
27

49

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 28 of 39

use, and manufactured, without license or legal right, Plaintiffs inventions
described in and covered by the ’439 and ’990 Patents.
8/10/17 Am. Compl.

194-95.

The Fifth Amended Complaint, however, does not contain “the necessary supporting or
primary facts sufficient to allege” that the Government “used, authorized the use, and
manufactured . . . Plaintiffs inventions,” as a result of the NSF cooperative agreements. See
Hebern, 132 Ct. Cl. at 348-49. Instead, the Fifth Amended Complaint implies “direct” use or
manufacture by the Government, based solely on the NSF’s funding the development of allegedly
infringing “devices” or “programs.” 8/10/17 Am. Compl. If 194 (“The Center of Integrated
Nanomechanical Systems (COINS) is a multidisciplinary nanoscale science and engineering
center (NSEC) funded by the [NSF.]” (emphasis added)). Funding alone, however, does not
establish “direct” use or manufacture of “Plaintiffs inventions” by the NSF. See Capitol
Boulevard Partners, 31 Fed. Cl. at 761. Although cooperative agreements entail some greater
involvement by the NSF than grants, that fact also does not establish “direct” use or manufacture
by the NSF; and the Fifth Amended Complaint failed to allege any other involvement by the NSF.
Compare 31 U.S.C. § 6305 (“An executive agency shall use a cooperative agreement . . .
when . . . substantial involvement is expected between the executive agency and the .. . recipient
when carrying out the activity contemplated in the agreement.”), with 31 U.S.C. § 6304 (“An
executive agency shall use a grant agreement... when... substantial involvement is not expected
between the executive agency and the ... recipient when carrying out the activity contemplated in
the agreement.”). Nor does the Fifth Amended Complaint cite any portions of the NSF cooperative
agreements or communications between the NSF and cooperative agreement awardees from which
the court reasonably could infer “direct” use or manufacture by the NSF; and the Fifth Amended
Complaint’s conclusory allegations are not sufficient to establish jurisdiction. See Norton, 266
U.S. at 515 (“It is quite true that the jurisdiction of a federal court must affirmatively and distinctly
appear and cannot be helped by presumptions or by argumentative inferences drawn from the
pleadings.”).
The Fifth Amended Complaint also fails to allege that “the accused use or manufacture
was undertaken... for the Government’s benefit.” See Hughes Aircraft Co., 534 F.2d at 897. The
Fifth Amended Complaint contains no factual allegations establishing anything more than
“incidental benefit” to the Government. See Advanced Software Design Corp., 583 F.3d at 1379
(holding that “an interest in [a] program generally, or [where the Government] funds or reimburses
all or part of [a program’s] costs, is too remote to make the [Government the program’s
beneficiary for the purposes underlying § 1498” (quoting Larson, 26 Cl. Ct. at 369)); see also IRIS
Corp., 769 F.3d at 1362 (“Incidental benefit to the [GJovemment is insufficient” to satisfy
the requirements of 28 U.S.C. § 1498(a).). Moreover, although cooperative agreements entail
some greater involvement by the NSF than grants, the purpose is the same, i.e., “to transfer a
thing of value . . . instead of acquiring . . . property or services for the direct benefit or use of
the . . . Governments 31 U.S.C. § 6305 (emphasis added); see also 31 U.S.C. § 6304 (“[T]he
principal purpose of [a grant agreement] is to transfer a thing of value ... instead of acquiring ...
property or services for the direct benefit or use of the ... Government.”).
Nor does the Fifth Amended Complaint allege that “the Government gave its authorization
or consent for the accused use or manufacture.” See Hughes Aircraft Co., 534 F.2d at 897. The
28

50

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 29 of 39

Fifth Amended Complaint does not contain any factual allegations establishing that the NSF, at
any time, authorized or consented to infringing use or manufacture. For example, the Fifth
Amended Complaint does not cite any portions of the NSF cooperative agreements or
communications between the NSF and cooperative agreement awardees “expressly” or
“implicitly” authorizing infringing conduct. See Larson, 26 Cl. Ct. at 369-70 (“[Authorization
or consent requires explicit acts or extrinsic evidence sufficient to prove the [Government’s
intention to accept liability for a specific act of infringement.”), Nor does the Fifth Amended
Complaint include any factual allegations that could be construed as “express” or “implied”
authorization or consent by the NSF to infringe Plaintiff’s patents. See Hughes Aircraft Co., 534
F.2d at 901 (holding that implied authorization may be presumed when the Government provides
“instructions, . . . specifications^] or drawings which impliedly sanction and necessitate
infringement”); see also IRIS Corp., 769 F.3d at 1362 (holding that “the [Government, .. clearly
provided its authorization or consent[,] because [the contractor] . .. cannot comply with its legal
obligations without engaging in the allegedly infringing activities”). Instead, each of the
NSF cooperative agreements incorporated a standard clause advising that the NSF “cannot
assume any liability for . . . claims arising out of, or related to, . . . [the] unauthorized use of
patented . .. materials.” 10/20/17 Gov’t Mot. Ex. 15. Therefore, awardees were warned that the
use of “patented . . . materials” was “unauthorized.” See Carrier Corp., 534 F.2d at 247-49
(holding that the Government “can limit. . . authorization and consent” by “inclusion ... of a
standard clause [that] limits the Government’s authorization and consent”).
For these reasons, the court has determined that the patent infringement allegations
contained in
194-95 of the August 10, 2017 Fifth Amended Complaint failed to satisfy
Plaintiff’s burden to establish jurisdiction under 28 U.S.C. § 1498(a). Accordingly, these
paragraphs of the Fifth Amended Complaint must be dismissed under RCFC 12(b)(1).
c.

Patent Infringement Allegations Concerning National
Institutes Of Health Grants Must Be Dismissed Under RCFC
12(b)(1).

The Government also argues that patent infringement allegations25 concerning the four
NIH grants26 should be dismissed under RCFC 12(b)(1). 10/20/17 Gov’t Mot. at 14-15.
The Fifth Amended Complaint alleges the following with respect to Grant No.
1R21AI120973:
Upon information and belief, the United States has infringed, and continues
to infringe, at least claim 20 of the ’439 Patent, claim 34 of the ’752 patent, and
25 The paragraphs in the Fifth Amended Complaint that include patent infringement
allegations concerning the NIH grants are:
335-36, 355-56, 360-61, and 365-66, These
paragraphs are highlighted in blue in the attached Court Exhibit B.
26 The four NIH grants are: Grant No. 1R21AI120973-01 (10/20/17 Gov’t Mot. Ex. 16);
Grant No. 1R01EB021331-01 (10/20/17 Gov’t Mot. Ex. 17); Grant No. 1R43CA193096-01
(10/20/17 Gov’t Mot. Ex. 18); and Grant No. 1R43AI107984-01A1 (10/20/17 Gov’t Mot. Ex. 19).
29

51

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 30 of 39

claims 118, 18, 92, 25, and 124 of the ’990 Patent as a current manufacturer,
consumer, and/or user of the “FeverPhone” that is interconnected to the Apple
iPhone. Comell[’s] David Erickson, a mechanical engineer, and Saurabh Mehta, a
physician and nutrition researcher. The [NIH] . . . has awarded to Cornell a fouryear, $2.3 million grant to develop FeverPhone, which will diagnose six febrile
diseases in the field: dengue, malaria, chikungunya, typhoid fever, leptospirosis and
Chagas’ disease. FeverPhone—hardware and software, working in combination
with a smartphone or tablet—will provide a real-time, rapid and accurate diagnosis
using a drop of blood to differentiate and identify specific pathogens. While the
Zika virus was not included in this specific grant, as the application was submitted
before the current outbreak, the technology potentially can be expanded to include
it. “FeverPhone,” a smartphone based molecular diagnostics platform for point-ofcare differential diagnosis of six common causes of acute febrile illness includes:
(1) a specialized 6-plexed colorimetric IgM/IgG assay cartridge that exploits color
discrimination assay on mobile devices, (2) associated iPad based hardware that
allows rapid interpretation of the cartridge results, and (3) software that combines
differential molecular diagnosis with a confirmatory symptomatic interface.
As a result of contracts127^ with the [NIH]..., Cornell..., and Apple Inc.
for the development and commercialization of the “FeverPhone” and the “Apple
Inc.’s Electronic Communications Device” the United States has used, authorized
the use, and manufactured, without license or legal right, Plaintiffs inventions
described in and covered by the ’439, ’752, and ’990 Patents.
8/10/17 Am. Compl.

355-56.

The Fifth Amended Complaint contains patent infringement allegations arising from the
award of the other NIH grants, each of which repeats the text of 28 U.S.C. § 1498(a) in
conclusively alleging that, “[a]s a result of contracts with the [NIH]... the United States has used,
authorized the use, and manufactured . . . Plaintiff’s inventions” as “a current manufacturer,
consumer, and/or user” of the “devices” or “programs” developed under the NIH grants. 8/10/17
Am. Compl.
336, 356, 361, 366. The Fifth Amended Complaint, however, does not contain
“the necessary supporting or primary facts sufficient” to support this conclusion. See Hebern, 132
Ct. Cl. at 348-49. Instead, the Fifth Amended Complaint implies “direct” use or manufacture by
the Government, based solely on the NIH’s funding the development of allegedly infringing
“devices” or “programs.” 8/10/17 Am. Compl. f 356 (“As a result of contracts,” i. e., the NIH
grants, “the United States has used, authorized the use, and manufactured . . . Plaintiffs
inventions[.]” (emphasis added)). Funding alone, however, does not establish “direct” use or
manufacture of “Plaintiff s inventions” by the NIH, see Capitol Boulevard Partners, 31 Fed. Cl.
at 761 (determining that, with regard to federal grants, “the [Government does not procure any
property or services for its direct use, rather it provides funding”); and the Fifth Amended
Complaint’s conclusory allegations are not sufficient to establish jurisdiction. See Norton, 266
27 As previously explained, the Fifth Amended Complaint’s characterization of a NIH grant
as a contract is incorrect. See 31 U.S.C. §§ 6303-6304 (distinguishing between grant agreements
and procurement contracts).
30

52

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 31 of 39

U.S. at 515 (“It is quite true that the jurisdiction of a federal court must affirmatively and distinctly
appear and cannot be helped by presumptions or by argumentative inferences drawn from the
pleadings.”).
The Fifth Amended Complaint also fails to allege that “the accused use or manufacture
was undertaken... for the Government’s benefit.” See Hughes Aircraft Co., 534 F.2d at 897. The
Fifth Amended Complaint contains no factual allegations establishing more than “incidental
benefit” to the Government. See Advanced Software Design Corp., 583 F.3d at 1379 (holding that
“an interest in [a] program generally, or [where the Government] funds or reimburses all or part
of [a program’s] costs, is too remote to make the [Gjovemment the program’s beneficiary for the
purposes underlying § 1498” (quoting Larson, 26 Cl. Ct. at 369)); see also IRIS Corp., 769 F.3d
at 1362 (“Incidental benefit to the [G]ovemment is insufficient” to satisfy the requirements of 28
U.S.C. § 1498(a).).
Nor does the Fifth Amended Complaint allege that “the Government gave its authorization
or consent for the accused use or manufacture.” See Hughes Aircraft Co., 534 F.2d at 897. The
Fifth Amended Complaint does not contain any factual allegations establishing that the NIH, at
any time, authorized or consented to infringing use or manufacture. For example, the Fifth
Amended Complaint does not cite any portions of the NIH grants “expressly” or “implicitly”
authorizing infringing conduct. See Larson, 26 Cl. Ct. at 369-70 (“[Authorization or consent
requires explicit acts or extrinsic evidence sufficient to prove the [Gjovemment’s intention to
accept liability for a specific act of infringement.”). Nor does the Fifth Amended Complaint
include any factual allegations that could be construed as “express” or “implied” authorization or
consent by the NIH to infringe Plaintiffs patents. See Hughes Aircraft Co., 534 F.2d at 901
(holding that implied authorization may be presumed when the Government provides
“instructions, . . . specifications^] or drawings which impliedly sanction and necessitate
infringement”); see also IRIS Corp., 769 F.3d at 1362 (holding that “the [G]ovemment... clearly
provided its authorization or consent[,] because [the contractor] . . . cannot comply with its legal
obligations without engaging in the allegedly infringing activities”). Instead, three of the NIH
grants were “subject to” 45 C.F.R. § 75.435(h), that provides that “[c]osts of legal. . . services,
and related costs, incurred in connection with patent infringement litigation, are unallowable
unless otherwise provided for in the . . . award.” 45 C.F.R. § 75.435(h). Although the text of
45 C.F.R. § 75.435(h) does not directly pertain to the NIH’s authorization or consent, it does
bolster the conclusion that the NIH grants are devoid of express or implied authorization or
consent.
For these reasons, the court has determined that the patent infringement allegations
contained in
335—36, 355—56, 360—61, and 365—66 of the August 10, 2017 Fifth Amended
Complaint failed to satisfy Plaintiff’s burden to establish jurisdiction under 28 U.S.C. § 1498(a).
Accordingly, these paragraphs of the Fifth Amended Complaint must be dismissed under RCFC
12(b)(1).

31

53

Case 1:13-CV-00307-SGB Document 130 Filed 03/29/18 Page 32 of 39

d.

Patent
Infringement Allegations
Concerning
The
Government’s Alleged Use Of “Smartphones And Other
Consumer Devices” Must Be Dismissed Under RCFC 12(b)(1)
And 12(b)(6).

The Government argues that patent infringement allegations28 “relating generally to
smartphones and other consumer devices” should be dismissed under RCFC 12(b)(1), because the
Fifth Amended Complaint “fails to sufficiently allege actual ‘use’ by the [Government of the
various combinations of consumer devices, nor would the [G]ovemment’s use be plausible.”
10/20/17 Gov’t Mot. at 17.
The Fifth Amended Complaint alleges the following with respect to the “LG Electronics
G5 Smartphone”:
Upon information and belief, the United States has infringed, and continues
to infringe, at least claim 22 of the ’439 Patent, and claims 18,118, 12,28,25,30,
22, and 20 of the ’990 Patent as a current manufacturer, consumer, and/or user of
the “LG Electronics G5 Smartphone”. Manufacture for the Government; 2008:
The “Cell-All” initiative. The [DHS-S&T] .. ., Cell-All aims “to equip your cell
phone with a sensor capable of detecting deadly chemicals”, says Stephen Dennis,
Cell-All’s program manager. [DHS-S&T] pursued cooperative agreements with
four cell phone manufacturers: Qualcomm, LG, Apple, and Samsung. Used by the
Government; 2016: Both the LG G5 and VI0 smartphones can be used by the
[DOD]. The LG smartphones received a security certification from the [DISA], as
well as a certification by the [NIAP]. Sensors will integrate with 261 million cell
phones now used in the U.S. [and leverage billions of dollars spent each year in
sensor, carrier network^,] and cell phone development. Multiple sensors network
for chemical profiling; Cell-All aims “to equip your cell phone with a sensor
capable of detecting deadly chemicals”, says Stephen Dennis, Cell-All’s program
manager. Multiple sensor units per phone are possible. Stephen Dennis envisions
a chemical sensor in every cell phone in every pocket, purse, or belt holster.
As a result of contracts, agreements, and procurements with various
Government Agencies (f]j 49-78), the [DHS], the [DOD], and LG Electronics for
the manufacture, development, commercialization, and/or use of the
communication/monitoring device “LG Electronics G5 Smartphone”, the United
States has used, authorized the use, and manufactured, without license or legal
right, Plaintiffs inventions described in and covered by the ’439, and ’990 Patents.
8/10/17 Am. Compl. || 96-97 (bold in original).

28 The paragraphs in the Fifth Amended Complaint that include patent infringement
allegations “relating generally to smartphones and other consumer devices” are:
96-97,
101-02, 106-07, 111-12, 116-17, 121-22, 126-27, 131-32, 136-37, 141-42, 146-47, and
151-52. These paragraphs are highlighted in orange in the attached Court Exhibit B.
32

54

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 33 of 39

The Fifth Amended Complaint includes patent infringement allegations concerning the
Government’s alleged “use” and “manufacture” of other “smartphones [and] consumer devices,”
each of which repeats the text of 28 U.S.C. § 1498(a) in conclusively alleging that, “[a]s a
result of contracts, agreements, and procurements with various Government Agencies
(Iff 49-78) ... the United States has used, authorized the use, and manufactured . . . Plaintiffs
inventions!.]1” 8/10/17 Am. Compl. Iff 97,102,107,112, 117,122, 127, 132,137,142,147, 152.
To support this allegation, the Fifth Amended Complaint repeatedly cites to 49-78 of the Fifth
Amended Complaint. These paragraphs describe the Government’s intent to “allow” or “approve”
the “use” of various “smartphones and other consumer devices,” e.g., “the iPhone 5c and 5s.”
8/10/17 Am. Compl. f 75. For example, 53 of the Fifth Amended Complaint states:
2012: “The [DOD] expects in coming weeks to grant two separate security
approvals for Samsung’s Galaxy smartphones, along with iPhones and iPads
running Apple’s latest operating system—moves that would boost the number of
U.S. government agencies allowed to use those devices. An approval by the
Pentagon is considered as the highest standard^ in security.”
8/10/17 Am. Compl. f 53 (emphasis added).
Similarly, f 72 of the Fifth Amended Complaint states:
2014: “By opening its networks to Samsung and Apple devices, [DISA]... intends
to broaden the variety of mobile computers that troops and civilian [DOD]
employees can use in the field, on bases, in offices and elsewhere to receive and
send information and work almost anywhere at any time.”
8/10/17 Am. Compl. 72 (emphasis added).
The Fifth Amended Complaint, however, does not allege that the Government’s intent to
“allow” or “approve” the use of “smartphones and other consumer devices” infringes Plaintiffs
patents. Instead, the Fifth Amended Complaint alleges that the Government’s use of these devices
in combination with other “devices” or “programs,” e.g., the “‘Cell-All’ initiative,” infringes
Plaintiffs patents. 8/10/17 Am. Compl. fflj 96-97. No factual allegations, however, support
assuming that the Government used or authorized the use of these other “devices” or “programs”
to infringe Plaintiffs patents.
For example, although the Fifth Amended Complaint alleges that the “LG Electronics G5
Smartphone . . . can be used” by the Government, such an allegation does not support the
conclusion that the Government used or authorized the use of these devices to run the “‘Cell-All’
initiative.” 8/10/17 Am. Compl. 96-97. Nor do such allegations imply that the Government’s
use of the “LG Electronics G5 Smartphone” infringes Plaintiffs patents, since the Government
may simply use these devices to make calls. Without supporting factual allegations, however, the
court cannot assume infringing use or manufacture by the Government. See Norton, 266 U.S. at
515 (“It is quite true that the jurisdiction of a federal court must affirmatively and distinctly appear
and cannot be helped by presumptions or by argumentative inferences drawn from the
pleadings.”); see also 5B Charles A. Wright & Arthur R. Miller, Fed. Practice &
PROCEDURE § 1350 (3d ed. 2004) (“[Argumentative (as opposed to reasonable) inferences
33

55

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 34 of 39

favorable to the pleader will not be drawn and conclusory allegations or conclusions of law will
not be credited.”). In sum, although the factual allegations of the Fifth Amended Complaint may
support a conclusion that the Government “allowed” or “approved” the “use” of various
“smartphones and other consumer devices,” they do not support the conclusion that the
Government used or authorized the use of these devices in an infringing manner.
For these reasons, the court has determined that the patent infringement allegations
contained in 1fl[ 96-97, 101-02, 106-07, 111-12, 116-17, 121-22, 126-27, 131-32, 136-37,
141-42, 146-47, and 151-52 of the August 10, 2017 Fifth Amended Complaint failed to satisfy
Plaintiff’s burden to establish jurisdiction under 28 U.S.C. § 1498(a). Accordingly, these
paragraphs of the Fifth Amended Complaint must be dismissed under RCFC 12(b)(1).
In the alternative, the Government argues that the same allegations should be dismissed
under RCFC 12(b)(6), for “improperly alleging] infringement by or for the [Government in
irreconcilably vague and omnibus fashion by repeatedly citing ‘contracts, agreements, and
procurements with various Government Agencies.’” 10/20/17 Gov’t Mot. at 17.
The Government’s position is correct, because the Fifth Amended Complaint does not
contain factual allegations supporting that, “[a]s a result of contracts, agreements, and
procurements with various Government Agencies . . . the United States has used, authorized the
use, and manufactured . .. Plaintiff’s inventions[.]” 8/10/17 Am. Compl. ]] 97 (emphasis added).
The Fifth Amended Complaint fails to identify the “contracts, agreements, and procurements” at
issue. Without more, the Fifth Amended Complaint has not met the requirements of Twombly and
Iqbal. Nor does the Fifth Amended Complaint provide anything other than conclusory allegations
that the Government used or authorized the use of “smartphones and other consumer devices” in
a manner that infringes Plaintiff’s patents. Such “[tjhreadbare recitals of the elements of a cause
of action, supported by mere conclusory statements, [however,] do not suffice.” Iqbal, 556 U.S.
at 678; see also Sioux Honey Ass’n, 672 F.3d at 1062 (holding that a complaint “require[s] more
than labels and conclusions”).
For these reasons, the court has determined that even if the August 10,2017 Fifth Amended
Complaint established jurisdiction as to the patent infringement allegations contained in 96-97,
101-02, 106-07, 111-12, 116-17, 121-22, 126-27, 131-32, 136-37, 141-42, 146-47, and
151-52 of the Fifth Amended Complaint, the allegations contained therein failed to state a claim
upon which relief may be granted and must be dismissed under RCFC 12(b)(6).
e.

Patent Infringement Allegations Concerning Broad Agency
Announcements Must Be Dismissed Under RCFC 12(b)(6).

The Government argues that patent infringement allegations29 concerning a DNDO BAA
should be dismissed under RCFC 12(b)(6), because the Fifth Amended Complaint “fails to

29 The paragraphs in the Fifth Amended Complaint that include patent infringement
allegations concerning the DNDO BAA are: 161-67. These paragraphs are highlighted in red
in the attached Court Exhibit B.
34

56

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 35 of 39

plausibly allege that the Government either used or manufactured any technologies described in
the BAA.” 10/20/17 Gov’t Mot. at 22.
In relevant part, the Fifth Amended Complaint alleges:
Upon information and belief, the United States has infringed, and continues
to infringe, at least claims 1, 2, and 4 of the ’497 Patent, claims 34, and 37 of the
’752 Patent, claims 13, and 14 of the ’439 Patent, and claims 119, 29,18,118,12,
28, 25,20, 124, 32, and 30 of the ’990 Patent as a current manufacturer, consumer,
and/or user of the l”x2” Detection Device (DD) Samsung Galaxy s6 Smartphone;
2”x2” Detection Device (DD) Samsung Galaxy s6 Smartphone; NetS2 SmartShield
G300 Radiation Detector Samsung Galaxy s6 Smartphone; NetS2 SmartShield
G500 Radiation Detector Samsung Galaxy s6 Smartphone; and the Passport
Systems Base Control Unit (BCV) “TOUGHBOOK 31” Panasonic Laptop:
2”x2” Detection Device (DD) Samsung Galaxy s6 Smartphone: In response
to the [DNDO’s] BAA 09-102 Passport Systems, Inc. of Billerica, MA has
developed a system of networked portable spectroscopic radiation detectors to
improve the detection, localization, and identification of radiological threats.

NetS2 SmartShield G500 Radiation Detector Samsung Galaxy s6
Smartphone: Passport Systems Inc. G500 Radiation Detector alarms when radiation
levels are detected; used as a standalone device or as part of a network; is the same
size, form factor and weight as a smartphone and easily added to the belt of safety
personnel; is paired with a smartphone via Bluetooth, and automatically joins a
SmartShield Network.

As a result of contracts with the [DNDO], Passport Systems, Inc., Panasonic
Corporation, and the Samsung Group for the development and commercialization
of the l”x2” Detection Device (DD) Samsung Galaxy s6 Smartphone; 2”x2”
Detection Device (DD) Samsung Galaxy s6 Smartphone; NetS2 SmartShield G300
Radiation Detector Samsung Galaxy s6 Smartphone; NetS2 SmartShield G500
Radiation Detector Samsung Galaxy s6 Smartphone; and the Passport Systems
Base Control Unit (BCU) “TOUGHBOOK 31” Panasonic Laptop the United States
has used, authorized the use, and manufactured, without license or legal right,
Plaintiff’s inventions described in and covered by the ’497, ’439, ’752, and ’990
Patents.
8/10/17 Am. Compl.

161-62, 165,167.

But, the conclusion that, “[a]s a result of contracts with the DNDO ... the United States
has used, authorized the use, and manufactured . . . Plaintiffs inventions,”’ is not plausibly
supported by factual allegations in the Fifth Amended Complaint. 8/10/17 Am. Compl. f 167
35

57

Case 1:13-CV-00307-SGB Document 130 Filed 03/29/18 Page 36 of 39

(emphasis added). Indeed, the Fifth Amended Complaint fails to identify a single “contract” with
the DNDO, Instead, it alleges only that the DNDO issued a BAA; a BAA, however, is not a
“contract.” See 48 C.F.R. § 2.101(b) (defining a “BAA” as “a general announcement of an
agency’s research interest including criteria for selecting proposals and soliciting the participation
of all offerors capable of satisfying the Government’s needs”). Again, without more, the Fifth
Amended Complaint has not met the requirements of Twombly and Iqbal. And, conclusory
allegations that the Government used or authorized the use of the “Samsung Galaxy s6
Smartphone” in a manner that infringes Plaintiffs patents are likewise insufficient, as such
“[t]hreadbare recitals of the elements of a cause of action, supported by mere conclusory
statements, do not suffice.” Iqbal, 556 U.S. at 678; see also Sioux Honey Ass’n, 672 F.3d at 1062
(holding that a complaint “require[s] more than labels and conclusions”).
For these reasons, the court has determined that the patent infringement allegations
contained in 161-67 of the August 10,2017 Fifth Amended Complaint must be dismissed under
RCFC 12(b)(6).
f.

Patent Infringement Allegations Concerning The ’033 Patent
Must Be Dismissed Under RCFC 12(b)(1).

The Government argues that patent infringement allegations concerning the ’033 Patent
should be dismissed under RCFC 12(b)(1), because “this patent was surrendered when it was
reissued as (the ’891 Patent] and [the ’990 Patent].” 10/20/17 Gov’t Mot. at 22.
An application for reissue of a patent constitutes an offer to surrender the patent. See 35
U.S.C. § 251(a) (“[T]he Director shall, on the surrender of such patent and the payment of the fee
required by law, reissue the patent for the invention disclosed in the original patentf.]”).
“The surrender of the original patent.. . take[s] effect upon the issue of the reissued patent.” 35
U.S.C. § 252. Therefore, as amatter of law, “(a]n original patent cannot be infringed once a reissue
patent has issued, for the original patent is surrendered . . . [and t]he original claims are dead.”
Seattle Box Co., Inc. v. Indust. Crating & Packing, Inc., 731 F.2d 818, 827 (Fed. Cir. 1984).
In this case, on two occasions, Plaintiff applied for reissuance of the ’033 Patent via the
’837 Application and the ’853 Application, thereby offering to surrender the ’033 Patent in
accordance with 35 U.S.C. § 251(a). 2/12/16 Am. Compl. Ex. G, H. Thereafter, the USPTO
issued both of these reissue applications, as the ’891 Patent and the ’990 Patent, respectively, on
January 1, 2013 and February 12, 2013. 2/12/16 Am. Compl. Ex. G, H. As such, the ’033 Patent
was surrendered as of January 1, 2013, i.e., the earliest reissue date. See 35 U.S.C. § 252 (“The
surrender ofthe original patent... take[s] effect upon the issue of the reissued patent.”). Therefore,
the court does not have jurisdiction to adjudicate patent infringement allegations concerning
the ’033 Patent, because the ’033 Patent is no longer a “patent of the United States.” See 35
U.S.C. §§ 251(a), 252; see also 28 U.S.C. § 1498(a) (requiring “an invention described in and
covered by a patent of the United States”).

36

58

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 37 of 39

For these reasons, the court has determined that patent infringement allegations of the
August 10,2017 Fifth Amended Complaint concerning the ’033 Patent30 failed to satisfy Plaintiff s
burden to establish jurisdiction under 28 U.S.C. § 1498(a). Accordingly, these allegations of the
Fifth Amended Complaint must be dismissed under RCFC 12(b)(1).
g-

Patent Infringement Allegations Concerning Unissued Patent
Applications And Pre-Issuance Use Or Manufacture Must Be
Dismissed Under RCFC 12(b)(1).

The Government argues that patent infringement allegations concerning the ’839
Application and pre-issuance use or manufacture of the ’439 Patent should be dismissed under
RCFC 12(b)(1). 10/20/17 Gov’t Mot at 23.
The ’839 Application has not issued, nevertheless the Fifth Amended Complaint alleges
that the Government “infringed, and continues to infringe” claims of the ’ 839 Application. 8/10/17
Am. Compl. *1 91, In addition, the ’439 Patent issued on March 7, 2017, but the Fifth Amended
Complaint alleges infringement of the ’439 Patent, based on Government “programs” that were
cancelled in April 2014, almost three years prior to issuance of the ’439 Patent. Compare 8/10/17
Am. Compl. TflJ 315-16, with 10/20/17 Gov’t Mot. Ex. 22 (a June 10, 2014 United States
Government Accountability Office Report, explaining the DHS’s decision to cancel the
“BioWatch Gen-3” program in April 2014). In addition, the Fifth Amended Complaint alleges
infringement of the ’439 Patent, based on NSF grants that expired prior to issuance of the ’439
Patent. Compare 8/10/17 Am. Compl. ff 184-85, 199-200, 260-61, 275-76, 280-81, 295-96,
305-06, with 10/20/17 Gov’t Mot. Ex. 6-8,10, 12,
The court’s jurisdiction under 28 U.S.C. § 1498(a) is limited to allegations “against the
[Government arising out of post-issuance [Government use [or manufacture] of an invention.”
Homback v. United States, 601 F.3d 1382, 1386 (Fed. Cir. 2010) (“The language of section
1498(a) is mandatory, and therefore grants the [United States] Court of Federal Claims exclusive
jurisdiction to hear all claims against the [G]ovemment arising out of post-issuance [G]ovemment
use of an invention.”).
For these reasons, the court has determined that patent infringement allegations of the
August 10, 2017 Fifth Amended Complaint concerning the ’839 Application31 and pre-issuance

30 Infringement of the ’033 Patent is alleged in
91-92 of the August 10, 2017 Fifth
Amended Complaint, the relevant portions of which the court has highlighted in purple in the
attached Court Exhibit B. These paragraphs, however, contain patent infringement allegations
concerning other patents and therefore are dismissed to the extent they concern the ’033 Patent.
31 Infringement of the ’839 Application is alleged in 91-92 of the August 10,2017 Fifth
Amended Complaint, the relevant portions of which the court also has highlighted in purple in the
attached Court Exhibit B. These paragraphs, however, contain patent infringement allegations
concerning other patents and therefore are dismissed to the extent they concern the ’839
Application.
37

59

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 38 of 39

use or manufacture of the ’439 Patent32 failed to satisfy Plaintiffs burden to establish jurisdiction
under 28 U.S.C. § 1498(a). Accordingly, these allegations of the Fifth Amended Complaint must
be dismissed under RCFC 12(b)(1).
h.

Patent Infringement Allegations Concerning The ’761, ’280,
And ’189 Patents Must Be Dismissed Under RCFC 12(b)(6).

Finally, the Government argues that patent infringement allegations concerning the ’761,
’280, and ’189 Patents should be dismissed under RCFC 12(b)(6), because the Fifth Amended
Complaint “alleges no infringement of any claims of these patents.” 10/20/17 Gov’t Mot. at 23.
With regard to the ’761, ’280, and ’189 Patents, the Fifth Amended Complaint alleges:
Upon information and belief, the United States has infringed, and continues
to infringe, .. . Plaintiffs Tangible Patented Claimed Inventions of. . . [the ’761,
’280, and ’189 Patents.]
*

As a result of contracts, agreements, procurements, and grants, for the
development and commercialization of Plaintiffs tangible patented claimed
inventions, the United States . . . has used, authorized the use, manufactured
and developed, without license or legal right, or authorization and consent,
Plaintiffs tangible patented claimed inventions as described in and covered by the
Plaintiffs .. . ’761, ’280,. .. [and] ’189 . .. [P]atents.
8/10/17 Am. Compl. ft 91-92.
To survive a motion to dismiss under RCFC 12(b)(6), “[t]here must be some allegation of
specific services or products of the defendants which are being accused.” Addiction and
Detoxification Inst. L.L.C. v. Carpenter, 620 F. App’x 934, 937 (Fed. Cir. 2015). The Fifth
Amended Complaint, however, does not contain any allegation about how the ’761, ’280, and ’189
Patents were infringed and by what action of the Government.
32 Infringement of the ’439 Patent is alleged in ff 91-92, 96-97,101-02,106-07,111-12,
116-17, 121-22, 126-27, 131-32, 136-37, 141-42, 146-47, 151-52, 156-57, 161-67, 171-72,
176-80, 184-85, 189-90, 194-95, 199-200, 204-05,209-10, 214-15, 219-20, 224-26, 230-31,
235-36, 240-41, 245-46, 250-51, 255-56, 260-61, 265-66, 270-71, 275-76, 280-81, 285-86,
290-91, 295-96, 300-01, 305-06, 310-11, 315-16, 320-21, 325-26, 330-31, 335-36, 340-41,
345-46, 350-51, 355-56,360-61, and 365-66 of the August 10, 2017 Fifth Amended Complaint,
the relevant portions of which the court has highlighted in pink in the attached Court Exhibit B, if
not otherwise highlighted in a difference color. These paragraphs, however, contain patent
infringement allegations concerning other patents and therefore are dismissed to the extent they
concern the ’439 Patent. If Plaintiff can identify post-issuance activity incorporated within these
paragraphs that is not otherwise dismissed, the court will reconsider dismissal of those relevant
portions.
38

60

Case l:13-cv-00307-SGB Document 130 Filed 03/29/18 Page 39 of 39

For these reasons, the court has determined that the patent infringement allegations of the
August 10, 2017 Fifth Amended Complaint concerning the ’761, ’280, and ’189 Patents must be
dismissed under RCFC 12(b)(6).33
V.

CONCLUSION.

For the reasons discussed herein, the Government’s October 20, 2017 Motion For Partial
Dismissal, pursuant to RCFC 12(b)(1) and 12(b)(6), is granted-in-part and denied-in-part.
Plaintiff’s November 17, 2017 Motion For Leave To File A Motion For Summary Judgment,
is denied, as the Government “has not had an opportunity to make full discovery.” Celotex
Corp. v. Catrett, 477 U.S. 317,326 (1986).
The court will convene a telephone status conference within the next two weeks to identify
what, if any, patent infringement allegations are viable and may be adjudicated, and how the parties
propose proceeding.
IT IS SO ORDERED.

£usan Gi^iRADEN
Chief Judge

33 Infringement of the ’761, ’280, and ’189 Patents is alleged in 91-92 of the August 10,
2017 Fifth Amended Complaint, the relevant portions of which the court also has highlighted in
purple in the attached Court Exhibit B. These paragraphs, however, contain patent infringement
allegations concerning other patents and therefore are dismissed to the extent they concern the
’761, ’280, and ’189 Patents.
39

61

Case l:13-cv-00307-SGB Document 94 Filed 11/30/16 Page 1 of 14

3ftt tfye

States? Court of jfeberal
No. 13-307C
Filed: November 30,2016

NOV 3 0 2016

♦ill***********************************

U.S. COURT OF
FEDERAL CLAIMS

28U.S.C. § 1498(a) (Patent Infringement);
35 U.S.C. § 251 (Reissue); RCFC 12(b)(1)
(Jurisdiction);
RCFC 12(b)(6) (Failure to State a Claim);
RCFC 12(e) (More Definite Statement);
RCFC 15(a)(2) (Amended Complaint,
With Court’s Leave);
Manual of Patent Examining Procedure
(9th ed. 2015).

LARRY GOLDEN,
Plaintiff, pro se,
v.
THE UNITED STATES,
Defendant.
********+****************************

Larry Golden, Greenville, South Carolina, pro se.
Lindsay Kate Eastman, United States Department of Justice, Civil Division, Washington, D.C.
MEMORANDUM OPINION AND ORDER DENYING THE GOVERNMENT’S
MOTION TO DISMISS
BRADEN, Judge.
I.

RELEVANT FACTUAL BACKGROUND.1

On April 5, 2006, Mr. Larry Golden filed Patent Application No. 11/397,118 (“the ’118
Application”), titled “Multi Sensor Detection, Stall To Stop And Lock Disabling System,” with
the United States Patent and Trademark Office (“USPTO”). 2/12/16 Am. Compl. Ex. B. On June
10, 2008, the ’118 Application resulted in the issuance of U.S. Patent No. 7,385,497 (“the ’497
Patent”). 2/12/16 Am. Compl. Ex. B.
Several days prior, on June 6, 2008, Mr. Golden filed a continuation-in-part application,2
No. 12/155,573 (“the ’573 Application”), of the ’118 Application. 2/12/16 Am. Compl. Ex. C.

i

The facts discussed herein are derived from the May 1, 2013 Complaint (“Compl.”); and
the February 12, 2016 Amended Complaint (“2/12/16 Am. Compl.”) and attached Exhibits A-K
(“2/12/16 Am. Compl. Ex. A-K”).
2 “A continuation-in-part is an application filed during the lifetime of an earlier
nonprovisional application, repeating some substantial portion or all of the earlier nonprovisional

7014 1300 □□□□

62

APPENDIX E

Case l:13-cv-00307-SGB Document 94 Filed 11/30/16 Page 2 of 14

On December 22,2009, the ’573 Application resulted in the issuance ofU.S. Patent No. 7,636,033
(“the ’033 Patent”). 2/12/16 Am. Compl. Ex. C.
On January 20, 2010, Mr. Golden filed a continuation application, Application No.
12/657,356 (“the ’356 Application”), of the ’573 Application. Thereafter, Mr. Golden filed several
continuation applications of the ’356 Application, resulting in:
• U.S. Patent No. 8,106,752 (“the ’752 Patent”), issued on January 31,2012;
• U.S. Patent No. 8,334,761 (“the ’761 Patent”), issued on December 18, 2012;
• U.S. PatentNo. 8,531,280 (“the ’280 Patent”), issued on September 10, 2013;
• U.S. Patent No. 9,096,189 (“the ’189 Patent”), issued on August 4, 2015; and
• Published Patent Application No. 2016-0027273 A1 (“the ’273 PG-PUB”).
2/12/16 Am. Compl. Exs. D, E, F, I.
On March 31, 2011, Mr. Golden filed a reissue application for the ’033 Patent that, on
January 1, 2013, issued as U.S. Reissue PatentNo. RE43,891 (“the ’891 Patent”).3 2/12/16 Am.
Compl. Ex. G.
On September 9, 2011, Mr. Golden filed a second reissue application for the ’033 Patent.
On February 12, 2013, the application resulted in the issuance of U.S. Reissue Patent No.
RE43,990 (“the ’990 Patent”). 2/12/16 Am. Compl. Exs. G, H.
The patents listed above disclose inventions for the detection and automated isolation of
dangerous chemical, biological, and radiological agents in shipping containers, tractor trailers,
mail carriers, mail boxes and lockers. See, e.g, 2/12/16 Am. Compl. Ex. B at 2. Mr. Golden is
the owner, and sole inventor, of these patents. 2/12/16 Am. Compl. Exs. A-I.

application and adding matter not disclosed in the said earlier nonprovisional application.” Manual
of Patent Examining Procedure (“MPEP”) §201.8 (9th ed. 2015).
3 Under 35 U.S.C. § 251, defective patents may be corrected through a process known as
“reissue.” Section 251(a) provides:
[w]henever any patent is, through error, deemed wholly or partly inoperative or
invalid, by reason of a defective specification or drawing, or by reason of the
patentee claiming more or less than he had a right to claim in the patent, the Director
shall, on the surrender of such patent and the payment of the fee required by law,
reissue the patent for the invention disclosed in the original patent, and in
accordance with a new and amended application, for the unexpired part of the term
of the original patent. No new matter shall be introduced into the application for
reissue.
35 U.S.C. § 251(a).
2

63

Case l:13-cv-00307-SGB Document 94 Filed 11/30/16 Page 3 of 14

II.

PROCEDURAL HISTORY.

On May 1, 2013, Mr. Golden (“Plaintiff’) filed a Complaint in the United States Court of
Federal Claims alleging that the Government infringed the ’990 Patent, based on three solicitations
published by the United States Department of Homeland Security (“DHS”) seeking to develop
technology for sensing biological and chemical substances. Compl. at 1-2. The Complaint alleges
that the DHS solicitations directly infringed, infringed under the doctrine of equivalents, or
infringed by inducement claims 11, 74 and 81 of the ’990 Patent. Compl. at 3.
On August 15, 2013, Plaintiff filed a “Notice of Supplement” that the court considers an
Amended Complaint. ECF No. 6.
On September 5, 2013, the Government filed a Motion For A More Definite Statement,
pursuant to Rule of the United States Court of Federal Claims (“RCFC”) 12(e), requesting that
Plaintiff further amend the May 1, 2013 Complaint to incorporate numbered paragraphs,
enumerate with particularity the Government devices or processes that allegedly infringe
Plaintiff’s patents, and identify the party in interest. ECF No. 9.
On September 20, 2013, Plaintiff filed: a Motion To Strike (ECF No. 10); a Motion To
Amend Complaint (ECF No. 11); a Motion To Supplement Complaint (ECF No. 14); a Response
to the September 5,2013 Motion For A More Definite Statement (ECF No. 12); and a Motion For
Summary Judgment (ECF No. 13).
On October 15, 2013, Plaintiff filed a second Response to the September 5, 2013 Motion
For A More Definite Statement that the court considers a Second Amended Complaint. The
October 15, 2013 Second Amended Complaint advised the court that Plaintiff is representing
himself, not the company ATPG Technology. ECF No. 20.
On October 21, 2013, the court granted the September 10, 2013 Motion For A More
Definite Statement, because the May 1, 2013 Complaint, the August 15, 2013 Amended
Complaint, and the October 15, 2013 Second Amended Complaint were so vague and ambiguous
that the Government could not prepare an informed Answer. ECF No. 21. That same day, the
Government filed a Response To Plaintiffs Motion For Summary Judgment. ECF No. 22.
On November 22,2013, Plaintiff filed a More Definite Statement. ECF No. 24.
On December 20, 2013, the court denied Plaintiffs September 20, 2013 Motion For
Summary Judgment, without prejudice, because the Government had not filed an Answer ECF
No. 28.
On December 30,2013, Plaintiff filed a Motion To Amend And Supplement Pleadings Of
The More Definite Statement, pursuant to RCFC 15(a)(2). ECF No. 29.
On January 10, 2014, the Government filed an Answer to the December 30, 2013 Motion
To Amend Pleadings. ECF No. 30. The Government treated the December 30, 2013 Motion To
Amend Pleadings as filed by leave of court and, therefore, superseding Plaintiffs November 22,
2013 More Definite Statement. ECF No. 30 at n.l.
3

64

Case l:13-cv-00307-SGB

Document 94 Filed 11/30/16 Page 4 of 14

On February 7,2014, the court granted the December 30,2013 Motion to Amend Pleadings
and ordered the parties to treat that motion as a Third Amended Complaint, superseding all prior
complaints submitted by Plaintiff. ECF No. 32.
On April 30, 2014, DHS filed a petition for inter partes review (“IPR”) of the ’990 Patent
before the USPTO Patent Trial and Appeal Board (“PTAB”).
On May 28, 2014, Mr. Ha Kung Wong informed the court that he was counsel of record
for Plaintiff (ECF No. 42) but, on September 12,2014, he withdrew (ECF Nos. 49, 50).
On October 8,2014, the PTAB filed a Decision To Institute IPR of claims 11, 74, and 81
of the ’990 Patent. See Department of Homeland Security v. Golden, IPR2014-00714, 2014 WL
6999625, at * 1 (P.T.A.B. Oct. 8,2014). With the exception of a sixty-day stay for Plaintiff to seek
legal representation, the court did not stay this case while PTAB proceedings were ongoing. The
court, however, did not take any substantive action during those proceedings.

On October 1, 2015, the PTAB issued a final decision “grant[ing] Patent Owner’s Motion
to Amend . . . claims 11, 74, and 81 of the ’990 Patent, and den[ying] the Motion to Amend . . .
claims 154—156.” See Department of Homeland Security v. Golden, IPR2014-00714, 2015 WL
5818910, at *17 (P.T.A.B. Oct. 1, 2015). On November 17, 2015, the PTAB denied Plaintiff’s
request for rehearing. See Department of Homeland Security v. Golden, IPR2014-00714, 2015
WL 10381775 (P.T.A.B. Nov. 17, 2015).
On December 22, 2015, the court convened a telephone status conference to discuss how
the case should proceed in light of the PTAB’s final decision. On December 23, 2015, the court
granted Plaintiff leave to file another amended complaint. ECF No. 65.
On February 12, 2016, Plaintiff filed a Fourth Amended Complaint (“2/12/16 Am.
Compl.”) alleging that, the Government: (1) was liable for the infringement of Plaintiffs ’497,
’752, ’891, ’990, and ’ 189 Patents under 28 U.S.C § 1498(a); and (2) violated the Fifth Amendment
of the United States Constitution by taking Plaintiff’s ’497, ’033, ’752, ’761, ’280, ’891, ’990,
’189 Patents and related ’273 Application, without just compensation. 2/12/16 Am. Compl. at
68—127.
The February 12, 2016 Amended Complaint identifies over thirty devices that were
developed or procured, as a result of Government solicitations, Government contracts, or National
Science Foundation (“NSF”) grants.4 2/12/16 Am. Compl. at ftf 68-127. These devices allegedly
4 The relevant devices are: M-Lock; High-Power Electromagnetic System (“HPEMS”);
Smartphone Microscope; Biophone; Smartphone Biosensor Cradle; iPhone Biodetector
Smartphone; Pathtracker; the Center of Integrated Nanomechanical Systems (“COINS”) NanoEmbedded Sensors; Smartphone-Based Rapid Diagnostic Tests; Lockheed Martin K-Max
Unmanned Self-flying Helicopter; Boeing MH-6 Little Bird Helicopter; SIN-VAPOR I
Smartphone System; Samsung Galaxy s6 Microscope Smartphone; VOCket System; Nett Warrior
Smartphone System; Northrop Grumman X-47B UCAS I X-47B Control Display Unit;
GammaPix; NFC Samsung Galaxy s6 Smartphone Sensor; Cell-All Synkera MikroKera Ultra;
4

65

Case l:13-cv-00307-SGB Document 94 Filed 11/30/16 Page 5 of 14

infringe claims in Plaintiffs ’497, ’752, ’891, ’990, and ’189 Patents. 2/12/16 Am. Compl. at
68-127.
On April 8, 2016, the Government filed an Answer to the February 12, 2016 Amended
Complaint. ECF No. 74.
On June 3, 2016, Plaintiff filed a Motion For Summary Judgment [On] Validity and, on
June 8, 2016, Plaintiff filed a Motion For Entry Of Estimated Damages And Accounting Report.
On June 10, 2016 the court convened a telephone status conference. On June 13, 2016,
based on the arguments raised during the status conference, the court ordered that the Government
file a Motion To Dismiss, and stayed the June 3, 2016 Motion For Summary Judgment and June
8, 2016 Motion For Entry Of Estimated Damages And Accounting Report ECF No. 85.
On June 24, 2016, the Government filed a Motion To Dismiss Certain Accused Devices
(“Gov’t Mot.”). On July 5, 2016 Plaintiff filed a Response (“PI. Resp.”). On July 18, 2016, the
Government filed a Reply (“Gov’t Reply”).
m.

STANDARD OF REVIEW.
A.

Standing.

Federal trial courts have been advised to “decide standing questions at the outset of a case.
That order of decision (first jurisdiction then the merits) helps better to restrict the use of the federal
courts to those adversarial disputes that Article III defines as the federal judiciary’s business.”
Steel Co. v. Citizensfor a Better Em’t, 523 U.S. 83,111 (1998) (Breyer, J., concurring). The party
invoking federal jurisdiction has the burden of proof to satisfy the constitutional requirements of
Article III standing. See FW/PBS, Inc. v. Dallas, 493 U.S. 215,231 (1990) (holding that the burden
is on the party seeking to exercise jurisdiction to clearly allege facts sufficient to establish
jurisdiction).
“A patentee shall have remedy by civil action for infringement of his patent.” 35 U.S.C. §
281; see also 35 U.S.C. § 100(d) (“The word ‘patentee’ includes not only the patentee to whom
the patent was issued but also the successors in title to the patentee.”); Paradise Creations, Inc. v.
UVSales, Inc., 315 F.3d 1304, 1308 (Fed. Cir. 2003) (“[T]his court has determined that in order
to assert standing for patent infringement, the plaintiff must demonstrate that it held enforceable
title to the patent at the inception of the lawsuit."') (emphasis in original).
Biotouch System; iPhone Biodetector Smartphone; Navy Marine Corps Intranet; FLIR
identiFINDER R300; AOptix Stratus MX Peripheral; MultiRae Pro Wireless Portable Multi
Threat Radiation and Chemical Detector; PositivelD’s M-BAND; PositivelD’s Firefly DX; l”x2”
Detection Device Samsung Galaxy s6 Smartphone; 2”x2” Detection Device Samsung Galaxy s6
Smartphone; NetS2 SmartShield G300 Radiation Detector Samsung Galaxy s6 Smartphone;
NetS2 SmartShield G500 Radiation Detector Samsung Galaxy s6 Smartphone; and the Passport
Systems Base Control Unit; Oshkosh Defense Autonomous Unmanned Ground Vehicle
TerraMax; and the Variable NODE+Oxa. 2/12/16 Am. Compl. at 68-127.

5

66

Case l:13-cv-00307~SGB Document 94 Filed 11/30/16 Page 6 of 14

The standard set forth by the United States Supreme Court over a century ago in Waterman
v. MacKenzie, 138 U.S. 252 (1891) still governs:
There can be no doubt that he is “the party interested, either as patentee, assignee,
or grantee,” and as such entitled to maintain an action at law to recover damages
for an infringement; and it cannot have been the intention of [C]ongress that a suit
in equity against an infringer to obtain an injunction and an account of profits, in
which the court is authorized to award damages, when necessary to fully
compensate the plaintiff, and has the same power to treble the damages as in an
action at law, should not be brought by the same person.
Id. at 260-61 (internal citations omitted).
The February 12, 2016 Complaint alleges that Plaintiff is the sole owner of the ’497, ’033,
’752, ’761, ’280, ’891, ’990, and ’189 Patents. 2/12/16 Am. Compl. at 6-7. Therefore, Plaintiff
has standing to seek an adjudication of the claims alleged in the February 12, 2016 Amended
Complaint.
B.

Jurisdiction.

The United States Court of Federal Claims has jurisdiction to adjudicate claims alleging,
[that] an invention described in and covered by a patent of the United States is used
or manufactured by or for the United States without license of the owner thereof or
lawful right to use or manufacture the same ... [seeking] recovery of... reasonable
and entire compensation for such use and manufacture. . . . [T]he use or
manufacture of [a patented] invention by a contractor, a subcontractor, or any
person, firm, or corporation for the Government and with the authorization or
consent ofthe Government, shall be construed as use or manufacture for the United
States.
28 U.S.C. § 1498(a) (emphasis added).
Infringing activity is “for the Government” under section 1498(a) if it is “for the benefit of
the Government.” Advanced Software Design Corp. v. Federal Reserve Bank of St. Louis, 583
F.3d 1371, 1378 (Fed. Cir. 2009); see also Madey v. Duke University, 413 F. Supp. 2d 601, 607
(M.D.N.C. 2006) (“A use is ‘for the Government’ if it is ‘in furtherance and fulfillment of a stated
Government policy’ which serves the Government’s interests and which is ‘for the Government’s
benefit.”’ (quoting Riles v. Amerada Hess, Corp., 999 F. Supp. 938, 940 (S.D. Tex. 1998)). In
Hughes Aircraft Co. v. United States, 534 F.2d 889 (1976), for example, the court held that a
satellite program to advance the military defense and security of the United States was “for the
Government.” Id. at 898.
Moreover, “authorization or consent of the Government,” does not need to be expressly
stated. See TVIEnergy Corp. v. Blane, 806 F.2d 1057, 1060 (Fed. Cir. 1986) (“[authorization or
consent by the Government can be express . . . [or] [i]n proper circumstances, Government
6

67

Case l:13-cv-00307-SGB Document 94 Filed 11/30/16 Page 7 of 14

authorization can be implied.”). Indeed, “authorization or consent... may be given in many ways
other than by .. . direct form of communication—e.g., by contracting officer instructions, [or] by
specifications ... which impliedly sanction and necessitate infringement^]” Hughes Aircraft Co,
534 F.2d at 901.
The February 12, 2016 Amended Complaint alleges that various nongovernment entities,
including a number of corporations and public research universities, infringed the ’497, ’033, ’752,
’761, ’280, ’891, ’990, and ’189 Patents. Whether the court has jurisdiction over those claims is
the subject of this Memorandum Opinion And Order.
C.

Standard Of Review For Pro Se Litigants.

Pro se plaintiffs’ pleadings are held to a less stringent standard than those of litigants
represented by counsel. See Haines v. Kerner, 404 U.S. 519, 520 (1972) (holding that pro se
complaints, “however inartfiilly pleaded,” are held to “less stringent standards than formal
pleadings drafted by lawyers”). The United States Court of Federal Claims traditionally examines
the record “to see if [a pro se] plaintiff has a cause of action somewhere displayed.” Ruderer
v. United States, 412 F.2d 1285, 1292 (Ct. Cl. 1969). Nevertheless, while the court may excuse
ambiguities in a pro se plaintiff’s complaint, the court “does not excuse [a complaint’s] failures.”
Henke v. United States, 60 F.3d 795, 799 (Fed. Cir. 1995). (“The fact that [the plaintiff] acted pro
se in the drafting of his complaint may explain its ambiguities, but it does not excuse its failures,
if such there be.”).
A pro se plaintiff, however, is not excused from his burden of proving, by a preponderance
of the evidence, that the court possesses jurisdiction. See McNutt v. Gen. Motors Acceptance
Corp., 298 U.S. 178, 189 (1936) (“[The plaintiff) must allege in his pleading the facts essential to
show jurisdiction.”); see also Reynolds v. Army & Air Force Exch. Serv., 846 F.2d 746, 748 (Fed.
Cir. 1988) ([The pro se plaintiff] bears the burden of establishing subject matter jurisdiction by a
preponderance of the evidence.”). The plaintiff cannot rely solely on allegations in the complaint,
but must bring forth relevant, adequate proof to establish jurisdiction. See Reynolds, 846 F.3d at
748 (“|T]t was incumbent upon [thepro se plaintiff] to come forward with evidence establishing
the court’s jurisdiction.”).
D.

Standard Of Review For A Motion To Dismiss, Pursuant To RCFC 12(b)(1).

A challenge to the United States Court of Federal Claims’ “general power to adjudicate in
specific areas of substantive law ... is properly raised by a [Rule] 12(b)(1) motion.” Palmer
v. United States, 168 F.3d 1310, 1313 (Fed. Cir. 1999); see also RCFC 12(b)(1) (allowing a party
to assert, by motion, “lack of subject-matter jurisdiction”). When considering a motion to dismiss
for lack of subject-matter jurisdiction, the court must take the facts alleged in the complaint as true.
See Erickson v. Pardus, 551 U.S. 89, 93-94 (2007). The court may consider evidence beyond the
pleadings, however, when the motion to dismiss challenges the jurisdictional facts alleged in the
complaint. SeeMoyerv. U.S., 190F.3d 1314, 1318 (Fed. Cir. 1999). If the court determines that
it does not have subject-matter jurisdiction, the court must dismiss the complaint. See RCFC
12(b)(1).

7

68

Case l:13-cv-00307-SGB Document 94 Filed 11/30/16 Page 8 of 14

E.

Standard of Review For Motion To Dismiss, Pursuant To RCFC 12(b)(6).

A claim is subject to dismissal under RCFC 12(b)(6), if it does not provide a basis for the
court to grant relief. See Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555—56 (2007) (“[A wellpleaded complaint] requires more than labels and conclusions, and a formulaic recitation of the
elements of a cause of action will not do. Factual allegations must be enough to raise a right of
relief above the speculative level, on the assumption that all the allegations in the complaint are
true (even if doubtful in fact).” (internal citations omitted)); see also Lindsay v. United States, 295
F.3d 1252, 1257 (Fed.Cir.2002) (“A motion to dismiss ... for failure to state a claim upon which
relief can be granted is appropriate when the facts asserted by the claimant do not entitle him to a
legal remedy.”).
A complaint must “contain sufficient factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’” Ashcroft v, Iqbal, 556 U.S. 662,679 (2009) (quoting Twombly,
550 U.S. at 570). The allegations contained in a complaint also must indicate to the court that
there is “more than a sheer possibility that a defendant has acted unlawfully. Id. “Threadbare
recitals of the elements of a cause of action, supported by mere conclusory statements, do not
suffice.” Id. To determine whether a complaint states a plausible claim for relief, a court must
engage in a context-specific analysis and “draw on its judicial experience and common sense.” Id.
at 678-79. The court, however, must construe the allegations of the complaint in the light most
favorable to the plaintiff. See Henke v. United States, 60 F.3d 795, 797 (Fed. Cir.1995).
IV.

DISCUSSION.
A.

The Government’s June 24, 2016 Motion To Dismiss The February 12, 2016
Amended Complaint’s M-Lock And HPEMS Claims, Pursuant To RCFC
12(b)(6).
1.

The Government’s Argument.

The Government argues that, under section 1498(a), a patent owner can sue the United
States for patent infringement only if the United States, a contractor, a subcontractor, a person, or
a corporation uses or manufactures the patented invention (1) for the Government and (2) with the
authorization or consent of the Government. Gov’t Mot. at 3. The February 12, 2016 Amended
Complaint alleges that iControl, Inc. (“iControl”), a Government contractor, used and
manufactured a device called M-Lock that infringed Plaintiff’s ’752 and ’990 Patents. Gov’t Mot.
at 3. The Amended Complaint, however, fails to allege sufficient facts to establish that the
Government was directly involved in the manufacture or use of M-Lock or that the device was
manufactured for the benefit of the Government. Gov’t Mot. at 4.
Similarly, the February 12, 2016 Amended Complaint alleges that Eureka Aerospace,
another Government contractor, used and manufactured a device called the High-Powered
Electromagnetic System (“HPEMS”) that infringed Plaintiffs ’891 Patent. Gov’t Mot. at 4.
Plaintiff alleges that the United States Air Force (“USAF”) issued a request related to HPEMS and
that the United States Marines (“Marines”) are a potential customer of the device, but otherwise
fails to allege any manufacture or use “by or for the Government.” Gov’t Mot. at 4.

8

69

Case l:13-cv-00307-SGB Document 94 Filed 11/30/16 Page 9 of 14

Accordingly, the February 12, 2016 Amended Complaint’s M-Lock and HPEMS claims
do not assert sufficient facts to entitle Plaintiff to a remedy under section 1498(a). Gov’t Mot. at
4. Those claims should therefore be dismissed, pursuant to RCFC 12(b)(6). Gov’t Mot. at 4.
2.

Plaintiff’s Response.

Plaintiff argues that the Government’s manufacture or use of an infringing device generally
results from procurement contracts. PI. Resp. at 6. Moreover, when purchasing goods and services
from a contractor, the Government seeks to acquire the best product without delay and “will not
refuse to award a contract on the grounds that the prospective contractor may infringe a patent.”
PI. Resp. at 6 (quoting 48 C.F.R. 27.102(b)). Plaintiff does not explicitly apply these rules to the
facts alleged in the February 12, 2016 Amended Complaint. But, his argument appears to be that
the existence of a contract between the Government and iControl and Eureka Aerospace for the
development of infringing devices supports a reasonable inference that the manufacture and use
of the devices was “for the Government” and “with the authorization and consent of the
Government.” 28 U.S.C. § 1498(a).
3.

The Government’s Reply.

The Government replies that Plaintiff did not address “[the Amended Complaint’s] failure
to state with particularity a cause of action for which relief can be granted relating to the M-Lock
Device or the [HPEMS].” Gov’t Reply at 2.
4.

The Court’s Resolution.
a.

The Government’s June 24, 2016 Motion To Dismiss The
February 12, 2016 Amended Complaint’s M-Lock Claims,
Pursuant To RCFC 12(b)(6), Is Denied.

The Government argues that the M-Lock claims should be dismissed, pursuant to RCFC
12(b)(6), because the February 12, 2016 Amended Complaint does not allege that M-Lock was
manufactured for the benefit of the Government. Gov’t Mot. at 4. The court disagrees.
Viewed in the light most favorable to Plaintiff, the February 12,2016 Amended Complaint
alleges sufficient facts to raise a plausible right of relief under section 1498(a). See Iqbal, 556
U.S. at 677. “A claim has facial plausibility when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the defendant is liable for the misconduct alleged.”
Id. at 678. The February 12, 2016 Amended Complaint alleges that DHS, a federal agency,
contracted with iControl “for the development^] commercialization [and purchase] of. . . MLock,” an automated locking device that contains “a movement sensor, a temperature sensor, a
humidity sensor, an infrared sensor, a radioactivity detection sensor, an acoustic sensor, [and/or] a
chemical detection sensor.” 2/12/2016 Am. Compl. ffl] 74—75. The February 12, 2016 Amended
Complaint alleges that M-Lock infringes several claims of Plaintiffs ’752 and ’990 Patents,
disclosing inventions that that automatically detect chemical, biological, and radiological agents
so that terrorist activity can be prevented. See 2/12/16 Am. Compl. Ex. D at 16; see also 2/12/16
Am. Compl. Ex. H at 17. And the February 12, 2016 Amended Complaint alleges that the

9

70

Case l:13-cv-00307-SGB Document 94 Filed 11/30/16 Page 10 of 14

infringing device is being used and manufactured without license or legal right. 2/12/2016 Am.
Compl. 75.
Based on the alleged facts, the court can reasonably infer that iControl is a government
contractor and that the manufacture and use of M-Lock was “for the benefit of [DHS].” See
Advanced Software Design Corp., 583 F.3d at 1378. In light of the allegation that the inventions
disclosed in patents ’752 and ’990 were designed to prevent terrorist activity, it is plausible that
iControl manufactured an infringing device for the benefit of DHS to promote national security.
See, e.g., Hughes Aircraft Co., 534 F.2d at 898 (finding that the government’s participation in a
satellite program was “for the Government,” because the program was vital to the military defense
and security of the United States). Moreover, under section 1498(a), “Government authorization
or consent” can be implied by circumstances. See TVIEnergy Corp., 806 F.2d at 1060.
In this case, the February 12, 2016 Amended Complaint alleges that DHS contracted with
iControl to develop and commercialize M-Lock. This contractual relationship supports a
reasonable inference that the Government authorized the manufacture and use of the infringing
device.
b.

The Government’s June 24, 2016 Motion To Dismiss The
February 12, 2016 Amended Complaint’s HPEMS Claims,
Pursuant To RCFC 12(b)(6), Is Denied.

The Government also argues that the February 12, 2016 Amended Complaint s HPEMS
claims should be dismissed, because they do not allege that Eureka Aerospace manufactured or
used the HPEMS “for the Government.” Gov’t Mot. at 4. Again, the court does not agree with
the Government’s contention. The February 12,2016 Amended Complaint alleges that as aresult
of [] contracts with [USAF] ... for the development and commercialization of the Eureka
Aerospace HPEMS, the United States has used, authorized the use, and manufactured, without
license or legal right, to Plaintiffs inventions [disclosed in patent ’891].” 2/12/16 Am. Compl. f
87. The HPEMS is a device that shoots an electromagnetic pulse so that vehicles can be disabled,
without using firearms. See 2/12/16 Am. Compl. If 86.
In light of these allegations, the court can reasonably infer that Eureka Aerospace’s
manufacture and use of the HPEMS advances the military defense and security of the United States
and is thus “for the benefit of tbe Government.” See, e.g., Hughes Aircraft Co., 534 F.2d at 898.
Moreover, construed in the light most favorable to Plaintiff, the February 12, 2016 Amended
Complaint alleges that USAF contracted with Eureka Aerospace to develop and commercialize
the HPEMS—sufficient facts to support a reasonable inference that USAF implicitly authorized
the manufacture and use of the infringing device. See TVI Energy Corp., 806 F.2d at 1060.5
5 While the February 12, 2016 Amended Complaint does not clearly state whether
USAF issued a solicitation for the HPEMS or awarded Eureka Aerospace a contract to develop
that device, the court must interpret a complaint in the light most favorable to the plaintiff, when
ruling on a motion to dismiss, pursuant to 12(b)(6). See Henke, 60 F.3d at 797. Therefore, the
court reads the February 12, 2016 Amended Complaint to allege that the Government awarded
Eureka Aerospace a contract to develop and commercialize the HPEMS.
10

71

Case l:13-cv-00307-SGB Document 94 Filed 11/30/16 Page 11 of 14

For these reasons, the court denies the Government June 24,2016 Motion To Dismiss the
February 12, 2016 Amended Complaint’s M-Lock and HPEMS claims, pursuant to RCFC
12(b)(6).
B.

The Government’s June 24, 2016 Motion To Dismiss The February 12, 2016
Amended Complaint’s National Science Foundation Claims, Pursuant To
RCFC 12(b)(1) and 12(b)(6).
1.

The Government’s Argument.

The Government contends that, under section 1498(a), “merely funding an activity does
not establish the Government’s authorization and consent [to manufacture or use an infringing
device].” Gov’t Mot. at 5. The February 12, 2016 Amended Complaint alleges that the
Government funded the development of multiple infringing devices through a series of NSF grants
(“NSF claims”), but does not allege any other facts to establish the Government’s authorization or
consent to the manufacture or use of those devices.6 Gov’t Mot. at 5. Moreover, the February 12,
2016 Amended Complaint does not allege that the NSF-funded devices were used or manufactured
“by or for the Government.” Gov’t Mot. at 5. Therefore, the February 12, 2016 Amended
Complaint’s NSF claims should be dismissed for failure to state a claim upon which relief can be
granted. Gov’t Mot. at 5.
The Government also argues—without additional explanation—that the court should
dismiss the NSF claims for lack of subject matter jurisdiction. Gov’t Mot. at 5.
2.

Plaintiffs Response.

Plaintiff responds that “[g]rant related agreements [are] contracts within Tucker Act
jurisdiction when all the requisite elements of a contract were present, including a government
representative with actual authority to bind the government in contract.” PI. Resp. at 7 (quoting
Pennsylvania Dep't ofPub. Welfare v. United States, 48 Fed. Cl. 785, 790 (2001) (“[g]rant related
agreements have been held to be contracts within Tucker Act jurisdiction when all the requisite
elements of a contract were present, including a government representative with actual authority
to bind the government in contract.”)). The February 12,2016 Amended Complaint’s NSF claims
facially involve grant related agreements. PI. Resp. at 8-9. Therefore, the United States Court of
Federal Claims has jurisdiction, under the Tucker Act, to adjudicate those claims. PI. Resp. at 8.
Plaintiff also argues that the Government’s award of NSF grants for the development of
infringing devices supports a reasonable inference that the manufacture and use of those devices
was “for the Government” and “with the authorization and consent of the Government.” PI. Resp.
at 10-11.

6 The accused devices are: the Smartphone Microscope, Gov’t Mot. at 5; Biophone, Gov’t
Mot. at 6; Smartphone Biosensor “Cradle”, Gov’t Mot. at 6; iPhone Biodetector Smartphone,
Gov’t Mot. at 7; Pathtracker, Gov’t Mot at 7; COINS, Gov’t Mot. at 8; and Smartphone-Based
Rapid Diagnostic Test Devices, Gov’t Mot. at 8.
11

72

Case l:13-cv-00307-SGB Document 94 Filed 11/30/16 Page 12 of 14

3.

The Government’s Reply.

The Government concedes that NSF Research Grant Awards may be treated as contracts
to establish jurisdiction under the Tucker Act, but argues that the existence of a contract is not
sufficient to establish liability under section 1498(a). Gov’t Reply at 2. Section 1498(a) allows a
patent holder to sue the Government only if the infringing manufacture or use of the relevant
invention was “for the Government” and “with the authorization or consent of the Government.”
Some courts have found that the terms of a NSF grant can satisfy section 1498(a). Gov’t Reply at
2 (citing McMullen Assoc., Inc. v. State Bd. OfHigher Ed., 268 F. Supp. 735 (D. Or. 1967)). The
grants at issue in those cases, however, reserved property rights in the infringing device to the
Government. Gov’t Reply at 2. The February 12, 2016 Amended Complaint does not allege that
the Government retained a property right in any of the accused devices and fails to allege any other
facts that could plausibly establish that the manufacture or use of the patented invention was “for
the Government” and “with the authorization or consent of the Government.” Gov’t Reply at 23.

4.

The Court’s Resolution.
a.

The June 24, 2016 Motion To Dismiss The February 12, 2016
Amended Complaint’s National Science Foundation Claims,
Pursuant To RCFC 12(b)(1), Is Denied.

Under the Tucker Act, the United States Court of Federal Claims has jurisdiction to
adjudicate a claim if the statute, regulation, or constitutional provision that is the basis for that
claim “can fairly be interpreted as mandating compensation by the Federal Government for the
damage sustained,” United States v. Mitchell, 463 U.S.206,217 (1983), and the plaintiff is “within
the class of plaintiffs entitled to recover under the statute if the elements of [the] cause of action
are established,” Greenlee County, Arizona v. United States, 487 F.3d 871, 876 (Fed. Cir. 2007).
“There is no further jurisdictional requirement that plaintiff make Q additional nonfrivolous
allegation^] that pie] is entitled to relief under the relevant money-mandating source.” Jan’s
Helicopter Serv., Inc. v. Federal Aviation Agency, 525 F.3d 1299, 1307 (Fed. Cir. 2008). Instead,
“the consequence of a ruling by the court. . . that plaintiffs case does not fit within the scope of
the [money-mandating] source ... is simply [that] plaintiff loses on the merits for failing to state
a claim on which relief can be granted.” Fisher v. United States, 402 F.3d 1167, 1175-76 (Fed.
Cir. 2005).
Here, the February 12, 2016 Amended Complaint’s NSF claims are based on section
1498(a), a statute that is money-mandating on its face. See 28 U.S.C. § 1498(a) (“Whenever an
invention described in and covered by a patent of the United States is used or manufactured by or
for the United States without license of the owner thereof or lawful right to use or manufacture the
same, the owner's remedy shall be by action against the United States in the United States Court
of Federal Claims for the recovery of his reasonable and entire compensation for such use and
manufacture.”) (emphasis added). Furthermore, Plaintiff is the owner of the United States patents
asserted in this case and is therefore entitled to recover under section 1498(a). See 28 U.S.C. §
1498(a).

12

73

Case l:13-cv-00307-SGB

Document 94 Filed 11/30/16 Page 13 of 14

Accordingly, the court has jurisdiction to adjudicate the February 12, 2016 Amended
Complaint’s NSF claims. The Government’s June 24, 2016 Motion To Dismiss, pursuant to
12(b)(1), is denied.
b.

The June 24, 2016 Motion To Dismiss The February 12, 2016
Amended Complaint’s National Science Foundation Claims,
Pursuant To RCFC 12(b)(6), Is Denied.

The February 12,2016 Amended Complaint’s.NSF claims allege sufficient facts to support
a reasonable inference that the manufacture and use of the accused devices was “for the
Government.” See Iqbal, 556 U.S. at 678. The NSF claims allege that the Government awarded
research grants to develop portable devices that can: (1) identify dangerous chemical, radiological,
and bacterial agents; and (2) track the spread of disease.7 Based on the alleged facts, it is plausible
that the accused devices were used to further the military defense, national security, and public
health interests of the United States: policies that the Government has a fundamental interest in
advancing. Accordingly, the court can reasonably infer that the use of the NSF-funded devices
was “for the Government.” See, e.g., Hughes Aircraft Co., 534 F.2d at 898 (finding that the
government’s participation in a satellite program was “for the Government,” because the program
was vital to the military defense and security of the United States); see also Madey, 413 F. Supp.
2d at 607 (M.D.N.C. 2006) (explaining that a use is “for the Government” if it is in furtherance
and fulfillment of a stated Government policy and for the Government’s benefit).
The February 12, 2016 Amended Complaint’s NSF claims also allege sufficient facts to
plausibly establish that the use of the accused devices was “with the authorization or consent of
the Government.” Authorization or consent can be implied from the circumstances—“e.g., by
contracting officer instructions, [or] specifications or drawings which impliedly sanction and
necessitate infringement.” Hughes Aircraft Co., 534 F.2d at 901. For example, in TVIEnergy
Corp., the United States Court of Appeals for the Federal Circuit held that the Government
impliedly sanctioned the use of a patented invention when it issued a solicitation that required
bidders to submit for inspection, and perform live demonstrations of, the accused device. See TVI
Energy Corp., 806 F.2d at 1060.
In this case, the relevant NSF grants anticipate that the awardees will develop and test the
devices proposed in their applications. See, e.g., NSF Award No. 1444240 (“Annual and Final
7 The relevant NSF grants are being used to develop: “a portable smartphone attachment
that can be used to perform sophisticated field testing to detect viruses and bacteria,” 2/12/16 Am.
Compl. 1(78; “[a device] that derives biological signals from your smartphone’s accelerometer . ..
[and] [t]his information is useful to base medical diagnoses in real-life conditions and to help track
chronic health conditions and effects of therapeutic interventions,” 2/12/16 Am. Compl. 1(80; “a
cradle and app for the iPhone to make a handheld biosensor that uses the phone’s own camera and
processing power to detect any kind of biological molecules or cells,” 2/12/16 Am. Compl. ^[92; a
handheld instrument to help contain the spread of Ebola, HIV, Tuberculosis, and Malaria, 2/12/16
Am. Compl. ^[102; “[a portable device for] real-time detection of explosives, toxicants, and
radiation,” 2/12/16 Am. Compl. 1(122; “highly sensitive rapid medical diagnostic tests,” 2/12/16
Am. Compl. 1(126.
13

74

Case l:13-cv-00307-SGB Document 94 Filed 11/30/16 Page 14 of 14

project reports, as required in the NSF Grant Conditions, should document all efforts and
outcomes, whether or not they are successful.”). Government funding of research that will lead to
the development and testing of an accused device supports a reasonable inference that the
Government impliedly sanctioned infringing activity.
V.

CONCLUSION.

For the reasons discussed herein, the Government’s June 24, 2016 Motion To Dismiss
Certain Devices, pursuant to RCFC 12(b)(1) and 12(b)(6), is denied.
Plaintiff, however, is cautioned that the court’s ruling today is based on the standard of
review on sufficiency of the pleading alone and is not to be construed as a ruling on the substantive
merits of the patent infringement claims alleged in the February 12, 2016 Amended Complaint.
The court will convene a telephone status conference in the next few days to discuss a schedule to
move this case towards adjudication.
IT IS SO ORDERED.

SUSAN Q^BRADEN
Judge

14

75

